<html>
<title> - SECURING AMERICA'S TRANSPORTATION SYSTEMS: THE TARGET OF TERRORISTS, AND TSA'S NEW DIRECTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 SECURING AMERICA'S TRANSPORTATION SYSTEMS: THE TARGET OF TERRORISTS, 
                        AND TSA'S NEW DIRECTION

=======================================================================



                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2010

                               __________

                           Serial No. 111-81

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
66-031                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 Sheila Jackson Lee, Texas, Chairwoman
Peter A. DeFazio, Oregon             Charles W. Dent, Pennsylvania
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Candice S. Miller, Michigan
Emanuel Cleaver, Missouri            Steve Austria, Ohio
James A. Himes, Connecticut          Peter T. King, New York (Ex 
Dina Titus, Nevada                       Officio)
Vacancy
Vacancy
Bennie G. Thompson, Mississippi (Ex 
    Officio)
               Thomas McDaniels, Staff Director (Interim)
                   Natalie Nixon, Deputy Chief Clerk
              Joseph Vealencis, Minority Subcommittee Lead



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     7

                               Witnesses

Mr. John S. Pistole, Administrator, Transportation Security 
  Administration:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10

                             For The Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection:
  Statement of the National Treasury Employees Union.............     3

                                Appendix

Questions From Chairwoman Sheila Jackson Lee of Texas for John S. 

  Pistole........................................................    29
Questions From Honorable Dina Titus of Nevada for John S. Pistole    40


 SECURING AMERICA'S TRANSPORTATION SYSTEMS: THE TARGET OF TERRORISTS, 
                        AND TSA'S NEW DIRECTION

                              ----------                              


                      Thursday, September 23, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:06 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, DeFazio, Titus, 
Thompson, Dent, and Olson.
    Also present: Representative Al Green of Texas.
    Ms. Jackson Lee. Good afternoon. The subcommittee will come 
to order.
    The subcommittee is meeting today to receive testimony on 
``Securing America's Transportation System: The Target of 
Terrorists, and TSA's New Direction.''
    Our witness today will testify about his plans and 
objectives for positioning TSA to meet the challenge of 
securing the Nation's transportation systems against terrorist 
attacks. This hearing will also provide Members of the 
subcommittee with an opportunity to communicate their 
priorities and concerns about the TSA programs and policies to 
administrator.
    I now recognize myself for 5 minutes for an opening 
statement.
    We are here today to discuss critical programs and policies 
designed to protect our Nation's transportation systems from 
terrorist attacks, and to welcome to the subcommittee the new 
transportation security administrator, John Pistole.
    Mr. Pistole, we welcome you for many reasons, because this 
is an important assignment. Secondarily, we want to applaud you 
for committing your life to the service of the American people, 
for the years that you have served in the Federal Bureau of 
Investigation and the years of commitment to the security of 
this Nation.
    With responsibility for ensuring the security of the 
Nation's airports, railways, roadways, transit systems, and 
pipelines, TSA's mission is critical and immense. Administrator 
Pistole comes to TSA in the wake of several events that have 
demonstrated to the American public and to Congress that the 
terrorist threat to transportation systems is persistent and 
evolving, and particularly so because terrorism has franchised. 
Unfortunately, terrorists seem to be lacking in creativity and 
seek to utilize the same targets to create the greatest havoc.
    Marching through this decade since the 9/11 attacks in 
2001, we have seen attacks on rail systems in Madrid, London, 
Mumbai, Moscow; the plot to destroy several commercial aircraft 
simultaneously over the Atlantic; the plot to attack the New 
York City subway system; and the attempted attack to destroy 
Northwest Airlines Flight 253 in the skies over Detroit on 
Christmas day of last year; the scare of last year that 
occurred at the Newark airport, where the airport was shut down 
because of a belief that someone had entered incorrectly; and, 
certainly, the unfortunate circumstances that occurred at 
Newark airport again in the last couple of days.
    Then, of course, with respect to the transit systems, Mr. 
Administrator, you are aware of H.R. 2200, which, with the 
leadership of Chairman Thompson and this subcommittee, we have 
passed an immensely constructive legislative initiative that 
now sits in the United States Senate. We recognize the crisis 
of which we are involved in.
    You need not be a security expert to understand that our 
transportation systems are indeed the targets of attack. How do 
we remain vigilant? How do we continue to meet the very real 
and significant challenges of protecting our transportation 
systems, which are critical to our economy and essential to our 
way of life?
    Today, the administrator will share with us his views and 
vision for accomplishing the mission.
    Let me start the discussion by laying this framework: We 
are a Nation of people who thrive on independence and deeply 
value personal liberty and personal privacy, justice, and 
equality. We are also a Nation that has been attacked and 
plotted against by terrorists wishing to end the American way 
of life.
    Mr. Pistole, while we were waiting for the confirmation of 
a TSA administrator during most of this Congress, this 
subcommittee has not been idle in its oversight of 
transportation security issues. The subcommittee has conducted 
rigorous oversight hearings on security programs for air cargo, 
aviation repair stations, general aviation, passenger 
checkpoints, surface transportation inspectors, and the 
Registered Traveler program.
    The full committee held an important hearing on the Flight 
253 Christmas day attempted bombing. Of course, the committee 
reported and the House passed H.R. 2200, the TSA Authorization 
Act.
    We have looked closely at the air marshals and determined 
that additional scrutiny and support is very much needed. In 
H.R. 2200, Congress gave direction to TSA on important security 
matters, including general aviation, security grants, 
codification of the Aviation Security Advisory Committee, 
improvements to the Federal Air Marshals Service, and the 
Federal Flight Deck Officers Program, and a realignment of 
surface transportation programs which have been underfunded and 
have lacked priority positioning within the TSA.
    While the Senate did not act on this important legislation, 
we will certainly seek your input in crafting a new 
authorization bill in the next Congress.
    Let me just add that we have seen over the years since 9/11 
the enhancement of the sensitivity of the traveling public, 
particularly as it relates to aviation. One maybe less 
publicized incident occurred that was told to me by a bystander 
on the street, how they wrestled to the ground an individual on 
an airplane headed to Las Vegas who was banging on the pilot's 
door and seeking to escape. That may have not been a terrorist 
intention, but, certainly, it would have been a frightening and 
devastating act if that individual had been able to open the 
air door, as they were attempting to do, which speaks to the 
importance of aviation issues as well as the importance of air 
marshals.
    In addition to security programs, the new administrator 
also has to address workforce issues. Questions have been 
raised about TSA's training programs for transportation 
security officers, and morale among the TSA workforce is among 
the lowest in the Federal Government. With new deployed 
technology and screening procedures, training, and workforce 
morale issues are more important than ever and form the crux of 
implementing an effective security program for our 
transportation systems.
    On the international front, the administrator and the 
Secretary of Homeland Security are our negotiators in 
developing stronger security measures at airports throughout 
the world. Aviation, in particular, is a global, interconnected 
system. Securing the weakest link, wherever it may be, will 
help to make the whole system more secure. I understand the 
administrator and Secretary will be in Montreal next week 
working on these international aviation security efforts, and 
we strongly support the effort.
    Mr. Administrator, your charge is significant, but this 
subcommittee stands ready to work with you to improve security 
throughout every mode of transportation.
    In closing, I do want you to know that we thank you again 
for your long career of Federal service. As a Judiciary 
Committee member, I know for sure the work that you have done 
at the FBI, and we have now been reacquainted again in your new 
capacity. I welcome you to the subcommittee and look forward to 
your testimony and our discussion.
    At this time, without objection, I would like to enter into 
the record a statement from the National Treasury Employees 
Union.
    Hearing no objection, it is so ordered.
    [The information follows:]
           Statement of the National Treasury Employees Union
                           September 23, 2010
    Madam Chairwoman, thank you for allowing me to offer a statement at 
today's important hearing about the Transportation Security 
Administration. As National President of the National Treasury 
Employees Union, I represent several thousand Transportation Security 
Administration Officers at TSA. The problems that were anticipated when 
TSA was created in a hurry after 9/11 have now become more apparent and 
more troubling. The employees have little or no voice in how things 
happen at TSA, and too often intimidation is used as a management 
technique. We hope that the administration will change this situation 
by granting collective bargaining rights by directive in the very near 
future. In addition, we look forward to passage of H.R. 1881, co-
sponsored by you and Rep. Lowey and Chairman Thompson, for a permanent 
change to full Title 5 protections for our TSA Officers.
    There are six areas that we believe need immediate attention:
    Collective Bargaining.--A workforce that is engaged and feels 
valued is in everyone's best interest. NTEU's No. 1 priority is in 
achieving collective bargaining rights for TSA Officers. There have 
been so many misconceptions of what collective bargaining would mean at 
TSA, that I feel I should address the topic. Chapter 71 of Title 5 of 
the U.S. Code sets out a detailed system for Federal employee labor-
management relations. The system is designed so that the business of 
the Federal Government can carry on with as little disruption as 
possible when there is a dispute. Strikes are expressly forbidden by 
statute. A union that has anything to do with even suggesting a strike 
is not allowed to represent Government workers. Management retains the 
right to hire, assign, lay off, retain, promote, suspend, and/or remove 
employees. These are excluded from collective bargaining. Management 
has the right to unilaterally determine what qualifications are 
required for any assignment.
    Federal labor relations are set up so that the mission of every 
agency is of paramount importance. Employees can bargain about the 
procedures an agency uses, but it cannot bargain about the mission. 
Chapter 71 specifically states that management has the right to take 
whatever actions may be necessary to carry out the agency mission 
during emergencies.
    Customs and Border Protection Officers have had collective 
bargaining rights for 30 years, and work in the same airports as TSA 
employees, doing similar work, without ever weakening National 
security. In addition, private sector employees that currently provide 
screening functions at several U.S. airports have retained broader 
private sector collective bargaining rights since before the creation 
of TSA.
    NTEU recently conducted a survey of TSA Officers which found that 
85 percent of TSA employees believe that collective bargaining rights 
would improve the effectiveness of TSA. Collective bargaining would 
give TSA Officers a voice in their workplace and allow them to work 
jointly with TSA leadership to devise uniform, fair, and transparent 
personnel procedures that will improve overall job satisfaction and 
morale of the workforce. Collective bargaining would provide TSA with a 
tested and well-defined process for ensuring fair treatment, addressing 
issues with appraisals, evaluations, testing and pay, provide for a 
fair and transparent scheduling process, and give employees a hand in 
improving workplace safety.
    Pay.--The pay system at TSA, the Performance Accountability and 
Standards System (PASS) must be eliminated. Every year, when the PASS 
payouts have been distributed, my office is flooded with calls from TSA 
Officers who are surprised and confused about how their ratings were 
determined and demoralized by the arbitrary nature of the payments. In 
addition, since most of the workforce has very low base salaries, the 
``merit'' increases are insignificant. The yearly certification test, 
upon which part of PASS is based, fails to measure an officer's true 
on-the-job performance and skills and needs to be completely rethought. 
We believe that TSOs should be under the same General Schedule system 
as most other Federal employees.
    A significant part of the PASS rating is based on the Practical 
Skills Evaluations (PSE) testing. The problems with the PSE testing are 
myriad and on-going. Officers are generally told whether they passed or 
failed, but they typically are not told why. First time failure rates 
are high--70 to 80 percent at many locations--yet almost everyone 
passes the second time. This leads to the conclusion that PSEs are not 
designed to test skills at all (at least not the first time), but to 
reduce PASS payouts because the first-time failures negatively impact 
the overall year-end PASS score, which determines bonuses. Many 
officers report that they have failed PSEs, when they have followed the 
pat-down, or baggage search protocol that they been taught and used for 
years. Most importantly, officers believe that the PSE tests do not 
accurately reflect the real-life conditions and therefore are not an 
accurate assessment of their skills and knowledge.
    Training.--TSA must standardize and improve training and 
remediation efforts. Given the importance of their jobs, it is hard to 
believe that the training system at TSA is as haphazard as it is. Most 
of the training is on-line, without benefit of the experience of a more 
senior officer. Often, the training center is far from the actual 
workplace, and training often happens on the employee's own time. 
Training and testing on image recognition do not reflect real-life 
conditions, rendering it ineffective and sometimes useless.
    When tests are done in baggage screening, the results are not 
shared with the testees. They may be told they have flunked, but they 
are not told why, or what they missed, or how to do a better job the 
next time. Before the annual recertification tests, (the PSEs), there 
is always a rush to train. Again, the training is often inadequate. 
Standard Operating Procedure at one airport is not the same as at 
another. During the last round of PSEs, there were many arguments about 
whether a person had passed the test or not. TSA should be providing 
clear guidance and assistance to help its employees improve 
performance.
    Leave.--At TSA, if an employee takes sick leave or leave under the 
Family and Medical Leave Act (FMLA), even if the reason is 
unquestionably legitimate and approved by his or her supervisor, it is 
deemed an ``occurrence''. Occurrences count against your PASS score, 
and too many occurrences result in leave restriction.
    Although FMLA is a National law, at TSA, interpretation of the law 
depends on who is in charge. Some Federal Security Directors make sure 
the law is followed. Some do not appear to understand the law at all. 
NTEU had to teach local managers about FMLA, but new problems continue 
to crop up. In some airports now, TSA Officers are routinely put on 
leave restriction if they are taking FMLA. We are working to overturn 
these decisions. Another new wrinkle is that TSA Officers who have been 
on FMLA are being forced to undergo new background checks in order to 
return to duty. We believe this is against the law and are trying to 
find out if this is a TSA directive or one of the many byzantine rules 
implemented by local airport TSA personnel.
    Worker's Comp.--At TSA, managers and supervisors have found that 
the best way to reduce injuries is to stop the employees from reporting 
them. The situation is so bad that NTEU has issued a paper on Workers 
Compensation for TSA Officers that starts out, ``Do not let anyone in 
supervision talk you out of filing (the initial form). It is not 
discretionary on their part''. Statements of injury are often 
questioned, and in many airports, the person who reports an injury is 
treated as a pariah. In some cases, TSA Officers continue to ``work 
hurt'' because a TSO who is injured on the job is often told to just 
find another job. There are even reports that contacting OSHA with a 
safety concern can result in a suspension or demotion.
    Labor-Management Relations.--The recent dismal showing of TSA in 
the ``Best Places to Work'' survey serves as a confirmation of what I 
have heard from my members about conditions at TSA. Out of 224 
agencies, TSA ranks 220--almost at the bottom. Very low scores for 
effective leadership and a family-friendly culture emphasize that major 
changes need to take place at TSA. Employees' perceptions are that 
senior leaders (FSDs, AFSDs, and Security Managers) misuse their 
authority, exercise it inconsistently, and show little regard for 
employees' ideas about how to do the work better. There is also a sense 
that work rules are too rigid, not taking into account personal 
emergencies or other circumstances beyond an employee's control.
    The good part of the ``Best Places'' survey is that it shows that 
TSA Officers believe in their mission and love what they do. Many TSA 
Officers came to the agency after 9/11, instilled with a passion to 
keep our Nation safe. They go to work every day wanting to contribute 
to our security. We welcome Mr. Pistole to TSA and hope that we can 
work together to make the agency better. No organization would be 
happier than NTEU to find that, in next year's survey, TSA is in the 
top 10 in The Best Places to Work.

    Ms. Jackson Lee. Without objection, upon his arrival--and 
he has arrived--the gentleman from Texas, Mr. Green, a Member 
of the full committee, is authorized to sit for the purpose of 
questioning witnesses during the hearing today.
    Hearing no objection, it is so ordered.
    Let me acknowledge the presence of Mr. Green; our Chairman 
of the full committee, Mr. Thompson; and a Member of the 
minority, Mr. Olson from Texas, who are present here today.
    The Chairwoman will now recognize the Ranking Member, the 
gentleman from Pennsylvania, Mr. Dent, for an opening 
statement.
    Mr. Dent. Good afternoon, Madam Chairwoman and Members of 
the subcommittee, and to our distinguished guest today, 
Assistant Secretary John Pistole.
    Before I begin, I would like to thank Chairwoman Jackson 
Lee for scheduling this hearing today. This is an important 
one. Our subcommittee undertook a vigorous schedule in the 
111th Congress, and, much like the TSA, we have a great deal of 
accomplishments but also a great deal of work that has yet to 
be addressed. I sincerely appreciate this opportunity to have 
Assistant Secretary Pistole testifying before our subcommittee 
today.
    This is Assistant Secretary Pistole's first visit before 
this subcommittee during open testimony. However, this is not 
his first visit before the committee, we should note for the 
record. In his previous role as deputy director of the FBI, he 
would occasionally brief the committee regarding on-going 
terrorist threats to the homeland.
    Hopefully, your testimony today will be slightly more 
uplifting.
    The TSA is an agency with vital importance to the security 
of our Nation, and it languished without leadership for far too 
long as the administration struggled to find a nominee who the 
Senate would confirm. Despite that delay, the nomination of 
Assistant Secretary Pistole thankfully brought a candidate with 
the valuable law enforcement, counterterrorism, and leadership 
experience necessary to lead the TSA.
    Mr. Pistole spent 27 years with the FBI, rising from the 
position of special agent to become the FBI's deputy director. 
Furthermore, he gained first-hand experience in the operation 
and management of a large agency with thousands of employees 
responsible for a complex set of missions that continually 
required outreach to State and local officials as well as the 
private sector.
    As the Ranking Member of this subcommittee, you know, I 
welcome your testimony here today. We have a plethora of issues 
to address, but I believe that we can only be successful if TSA 
and this committee continue to work in a close partnership that 
relies upon regular and strong communication. As the senior 
Republican on this subcommittee, I can assure you that we will 
work with TSA in a constructive and positive manner. We will 
provide strong oversight of your activities, but I commit to 
you that we will always be fair, open, and honest.
    In the field of aviation security, TSA has accomplished a 
great deal of progress but much work remains. We still endeavor 
to find the mix of technology, intelligence, and manpower that 
will provide optimal security, while respecting privacy and 
civil liberties.
    I have been and continue to be a strong supporter of the 
Advanced Imaging Technology, AIT, systems. These systems, as 
you know, give screeners the opportunity to identify non-
metallic threats concealed on a person. The terrorists are 
finding new and interesting ways to get around our security 
infrastructure, and we need to adapt our technology and our 
process accordingly.
    However, regardless of what technology we use or what 
processes we mandate, much of our security solutions still 
require a dedicated workforce and a strong public-private 
partnership. All of these individuals must be just as committed 
as our TSA checkpoint personnel in protecting our traveling 
public.
    With surface transportation, it seems that the work is 
really just beginning. Securing surface transportation systems 
will provide a daunting task, given the enormity of freely 
accessible infrastructure inherent to those systems.
    Additionally, there are a significant number of overdue 
regulations that TSA was supposed to issue since the Congress 
passed the Implementing Recommendations of the 9/11 Commission 
Act of 2007. These include regulations requiring railroad 
carrier vulnerability assessments, security plans, training 
programs, as well as public transportation and over-the-road 
bus security training programs. Some of these regulations are 
more than 3 years overdue, so we would like to work with you to 
see what TSA needs to finish them in a timely manner.
    There is also a great deal of work to be accomplished 
between TSA and this committee on the Transportation Security 
Grant Program. The TSA contemplates fundamental alterations in 
the manner of the TSGP and evaluate risk. So let's make sure 
that you are aware of the concerns that we hear regularly from 
our constituents, many of who operate the most vital 
infrastructure in the United States. So, as we approach the 
next grant cycle, it is my hope that we can strengthen 
cooperation between the committee and TSA and avoid many of the 
pitfalls to which we have fallen prey in past years.
    So, Madam Chairwoman, we have a lot to cover today, and we 
will continue to have a full agenda going forward in the 112th 
Congress, so cooperation is the key. The more we act in 
partnership with TSA and are made aware of the programmatic 
issues, the more we can do to make TSA successful.
    Again, Madam Chairwoman, thanks for holding this important 
hearing, and I will yield back.
    Ms. Jackson Lee. I thank the Ranking Member for his 
thoughtful statement.
    I want to acknowledge the presence of Mr. DeFazio of 
Oregon.
    The Chairwoman now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much. I would like to first 
thank you, Chairwoman Jackson Lee, for holding this important 
hearing.
    I also want to congratulate and thank Mr. Pistole for his 
willingness to lead one of the most important agencies in our 
Government.
    Although TSA has only been in existence for less than 10 
years, its impact on the worldwide traveling public, 
particularly here in the United States, cannot be understated. 
TSA's mission makes it one of the most critically challenging 
agencies to lead.
    I am confident that you can lead the agency effectively, 
and I look forward to working to improve it in any way.
    One of the things I want to talk about is, since the start 
of this Congress, as you know, this subcommittee has held 
several hearings addressing transportation security issues. We 
have encouraged TSA to devote more attention and resources to 
surface transportation security, the implementation of cargo 
screening programs, and the efficient development and 
deployment of checkpoint technologies. As a result, we have 
learned valuable information from TSA and stakeholders 
regarding successful programs and the need to improve others.
    We have also had many conversations about TSA's need to 
work collaboratively with other agencies and stakeholders. I 
hope you will continue to strengthen the agency's relationships 
with stakeholders.
    One of my chief concerns with TSA has been the need to 
update security checkpoints with adequate technology and 
enhanced processes that afford greater security and efficient 
passenger throughput. The deployment of technology must be done 
with thorough consultation.
    Last March, this committee requested that TSA submit an AIT 
deployment plan for this year, and I understand that we just 
received it this morning. But better late than never. But from 
March until almost October is too long.
    Because of this, it appears that TSA has deployed AIT to 
airports on an ad-hoc basis, without considering threat or 
risk-based approach. Because if you don't have a plan, the 
experience that we have seen as a committee, if there is an 
airport with available space, they get a machine. Now, that 
might not be threat- or risk-based, but they have the space. We 
don't think it should be like that.
    I will say, we will look at the plan, Mr. Assistant 
Secretary, and the plan might not have that. But in the absence 
of a plan to roll out AIT, that is probably what we have been 
getting.
    With regard to TSOs, TSA must empower its workforce and 
find ways to improve morale across the agency. The TSA 
workforce has endured unfavorable working conditions for too 
long. This has led to low morale, a lack of trust between them 
and supervisors and agency officials.
    One of the things I would ask that you look at, Mr. 
Secretary, is how you pay your TSOs. They absolutely hate that 
system of pay. Their comment to me most of the time is, ``Why 
can't we get paid on the GS system like every other Federal 
employee?'' Then they say, ``You are the Congressman. We are 
looking to you to answer.'' Well, I say, you are the assistant 
secretary; you run the agency. We want you to help us with that 
answer.
    Those employees deserve a better system of pay. Not pay, 
but they need to know what to expect, as men and women who are 
doing a good job. I am eager to work with you to find a 
solution that will empower our TSA workforce and provide them 
with the best available training and workforce development.
    But I would be remiss if I only mentioned the problems at 
TSA and not the successes. First Observer--a good program. The 
motor carriers and others who are involved in it think the 
world of it. So you are to be congratulated, as an agency, for 
putting that together.
    This office has played a critical role also, the Office of 
Global Strategies, particularly after the attack of December 
25. We are only as good as our foreign neighbors are. You know 
that. They are doing a good job.
    So, all in all, we want to welcome you to TSA, and we look 
forward to working with you in the future.
    I yield back, Madam Chairwoman.
    Ms. Jackson Lee. I thank the Chairman for his constructive 
remarks.
    It is now time to welcome the witness for what, 
Administrator Pistole, will probably be frequent visits, 
because it is key that we interact and perform our obligations 
and responsibility of oversight.
    Before I introduce you, other Members of the subcommittee 
are reminded that, under committee rules, opening statements 
may be submitted for the record.
    As TSA administrator, John S. Pistole oversees management 
of a 60,000-person workforce, the security operations of more 
than 450 Federalized airports throughout the United States, the 
Federal Air Marshals Service, and the security for highways, 
railroads, ports, mass transit systems, and pipelines.
    Administrator Pistole came to TSA as a 26-year veteran of 
the FBI, with extensive National security and counterterrorism 
experience. After the tragic events of September 11, 2001, he 
was put in charge of the FBI's greatly expanded 
counterterrorism program, eventually becoming the FBI's 
executive assistant director for counterterrorism and 
counterintelligence. In 2004, Mr. Pistole was named deputy 
director for the FBI.
    As noted by the Ranking Member, Mr. Pistole has been before 
this committee on a number of occasions, explaining, 
unfortunately, incidents that have occurred since 2001 that 
evidence that our vigilance in securing the homeland should be 
without comparison.
    Without objection, the witness's full statement will be 
inserted in the record.
    We welcome you, Administrator Pistole. Please summarize 
your statement for 5 minutes.

  STATEMENT OF JOHN S. PISTOLE, ADMINISTRATOR, TRANSPORTATION 
                    SECURITY ADMINISTRATION

    Mr. Pistole. Well, good afternoon, and thank you, Madam 
Chairwoman Jackson Lee and Chairman Thompson, Ranking Member 
Dent, and distinguished Members of the committee. It is an 
honor to be here for the first time for this hearing as the 
administrator of TSA, and I appreciate your kind words. I look 
forward to deepening the relationship between the committee and 
TSA and pledge my cooperation in doing that.
    I would like to share some of my thoughts about how I see 
the need to sharpen TSA's counterterrorism focus and supporting 
the 60,000-member workforce. These goals support my efforts to 
lead TSA to the next level of its development by using 
intelligence-driven security solutions.
    As we know, we just earlier this month commemorated the 
ninth anniversary of the 9/11 terrorist attacks. It really is a 
constant reminder for the men and women of TSA as to what their 
mission is all about.
    A key lesson I took from that day and from my career at the 
FBI is that one of the best tools to combat terrorism is 
accurate and timely intelligence. So my day and that of the 
senior leadership team at TSA begins with an intelligence 
briefing. We are continually honing our counterterrorism focus 
by working with our law enforcement and intelligence community 
partners to better operationalize that intelligence. We do that 
through a number of different ways, including the watchlisting 
and the Secure Flight program, which I will be glad to take 
questions about.
    The best intelligence, though, is that which is shared with 
the rank and file--the TSOs, the Federal air marshals, the 
explosive specialists, and behavior detection officers--to help 
terrorists from harming the traveling public. So a greater 
number of these front-line employees will now have a Secret 
security clearance. In fact, it was just approved where we will 
be going to 10,000 TSA employees that will have a Secret 
security clearance, to push that intelligence to as many people 
as possible.
    We are also encouraging our citizens across the country to 
be vigilant. The Secretary and I recently announced expansion 
of the ``If You See Something, Say Something'' campaign 
designed to raise public awareness of all types of illegal 
activity but particularly focused on terrorism.
    We continue to reach out to our foreign partners, as was 
mentioned, to strengthen the global aviation system. It was 
noted, we will both be in Montreal next week for the 
International Civil Aviation Organization Assembly in Montreal, 
where 190 member-states will be participating, in an effort to 
shore up our civil aviation defenses and efforts.
    As we continue to use our intelligence, we need to be 
informed by the latest technology. I want to make sure that we 
are not using yesterday's technology or even today's technology 
to address yesterday's threats. We need to be mindful of those 
threats, but we also need to try to anticipate, with the best 
intelligence, what the next terrorist attack may look like and 
how we can use our intelligence in forming the technology and 
our tactics in training and techniques to do the best possible 
job.
    We have now deployed 224 AIT machines to 56 airports around 
the country. Our goal is to have nearly 1,000 AIT machines 
deployed by the end of next year. We are working to enhance the 
efficiency of using AIT, particularly the training aspects, and 
working to address all the concerns that have been raised, 
whether that is privacy or safety.
    So, any intelligence-driven agency must use that best 
technology to accomplish its mission. There are a number of 
initiatives that I will be glad to talk about in more detail. 
As I engage the workforce, I have done a number of town-halls 
around the country to hear from the workforce. I have asked 
them two questions: What is working well to make TSA a good 
place to work? What are the barriers to keep TSA from being a 
great place to work?
    So, with that, I have done one other thing that I will 
announce, and that is the creation or the establishing of an 
Office of Professional Responsibility. One of the things I have 
heard from the TSOs and FAMs is the apparent subjectivity of 
the disciplinary process within TSA. So I am establishing this 
Office of Professional Responsibility, which will adjudicate 
significant disciplinary actions taken with respect to all 
employees.
    So, again, thank you for the opportunity to appear before 
the subcommittee today to speak with you about TSA's on-going 
efforts to ensure the safety and security of the transportation 
domain. I look forward to taking your questions.
    Thank you, Madam Chairwoman.
    [The statement of Mr. Pistole follows:]
                 Prepared Statement of John S. Pistole
                           September 23, 2010
    Good afternoon, Chairwoman Jackson Lee, Ranking Member Dent, and 
distinguished Members of the subcommittee. I am honored to appear 
before you and this subcommittee for the first time since my 
confirmation as the Assistant Secretary of the Department of Homeland 
Security (DHS) for the Transportation Security Administration (TSA). 
Madame Chairwoman, I appreciate the time I spent with you in Houston 
and I look forward to deepening the partnership between TSA and this 
committee as we work together to improve transportation security.
    Today I want to share some thoughts with you about improving TSA's 
counterterrorism focus through intelligence and cutting-edge 
technology, and supporting TSA's 60,000-member workforce. These goals 
support my efforts to lead TSA through the next stage of its 
development as it matures into a truly high-performance, world-class 
organization that facilitates travel by using smart, intelligence-
driven security solutions that do not compromise the safety, privacy, 
or civil liberties of the American people.
                  intelligence-based counterterrorism
    Earlier this month, we commemorated the ninth anniversary of the 9/
11 terrorist attacks and the devastation they wrought in New York City, 
at the Pentagon, and due to the brave intervention of passengers, a 
field in Pennsylvania. The memory of that day is seared into our 
psyches, and is a constant, somber reminder that we must be ever 
vigilant against those who would attack our freedoms, our economy, and 
our way of life, and who would disrupt our Nation's transportation 
system.
    A key lesson I took from that day and from my 27 years at the 
Federal Bureau of Investigation (FBI) is that one of the best tools we 
possess in our effort to combat terrorism is accurate and timely 
intelligence. It is with this in mind that I begin my day at TSA with 
an intelligence briefing with my senior staff--we are constantly honing 
our counterterrorism focus by working with DHS and our Federal partners 
to better operationalize this intelligence.
    For example, through better watchlisting capabilities and the 
implementation of our Secure Flight program, we continue to improve our 
efforts to prevent terrorists from boarding flights. Under Secure 
Flight, TSA uses name, date of birth, and gender to vet airline 
passengers against terrorist watch lists before those passengers are 
permitted to board planes. Passengers who are potential watch list 
matches are immediately identified for appropriate notifications and 
coordination. Secure Flight vets 100 percent of passengers flying on 
U.S. airlines domestically and internationally, as well as passengers 
on many foreign airlines, and we are working hard toward the goal of 
fully implementing the program for remaining covered foreign air 
carriers by the end of 2010. Counting both U.S. and foreign carriers, 
Secure Flight currently vets over 97 percent of all airline passenger 
travel to, from, and within the United States.
    Even the best intelligence, however, does not always identify in 
advance every individual who would seek to do us harm. So we also rely 
on the security expertise of our frontline personnel--Transportation 
Security Officers (TSOs), Federal Air Marshals, explosive specialists, 
and Behavior Detection Officers, among others--to help prevent 
terrorists from harming Americans.
    That reliance means that valuable intelligence must be distributed 
widely and rapidly to our employees in the field. One way we are 
improving this process is through the extension of secret-level 
security clearances to a greater number of TSA employees. This change 
significantly enhances TSA's ability to leverage the best intelligence 
and elevate our security practices across the board.
    But our Nation's security also is a shared responsibility. So we 
are encouraging our citizens, our communities, and our security and law 
enforcement partners across the country to remain vigilant and continue 
to build a National culture of preparedness and resiliency. As you 
know, Secretary Napolitano recently announced the expansion of the ``If 
You See Something, Say Something'' campaign. This simple and effective 
program was started by the New York Metropolitan Transportation 
Authority (MTA) to raise public awareness of indicators of terrorism, 
crime, and other threats and to emphasize the importance of reporting 
suspicious activity to the proper transportation and law enforcement 
authorities. In transportation sectors, I have joined Secretary 
Napolitano to launch ``If You See Something, Say Something'' with 
Amtrak and the general aviation community this year.
    In addition to engaging those in our own country, we also continue 
to reach out to our foreign partners. Secretary Napolitano and I will 
be attending the International Civil Aviation Organization (ICAO) 
Assembly in Montreal next week with our partners from the Department of 
Transportation and the Federal Aviation Administration, and we look 
forward to working with the international community in our joint 
efforts to strengthen the global aviation system.
                        cutting-edge technology
    As we improve our use of intelligence, we also know that effective 
technology is an essential component of our arsenal to detect and deter 
threats against our Nation's transportation systems. TSA is deploying a 
range of next generation equipment--bottled liquid scanners, Advanced 
Technology X-Ray systems, and Explosive Trace Detection (ETD) units--to 
enhance our efforts.
    The most effective technology for detecting small threat items 
concealed on passengers is Advanced Imaging Technology (AIT). AIT 
safely and effectively screens passengers for both metallic and non-
metallic threats, including weapons and explosives, without physical 
contact. As of September 17, 2010, TSA has deployed 224 AIT machines to 
56 airports Nation-wide, and our goal is to have nearly 1,000 AIT 
machines deployed by the end of calendar year 2011.
    TSA is seeking to enhance the efficiency of using AIT, while also 
reducing privacy concerns related to this technology, by working with 
manufacturers, the DHS Science and Technology Directorate, the security 
industry, and foreign government partners to develop automated threat 
detection software, also known as Automated Target Recognition (ATR). 
This is software used with AIT to display a computer-generated generic 
human image, going even further than the privacy-protected actual image 
of the passenger as the current technology does. On-going ATR testing 
is designed to ensure effective detection with minimal false alarms.
                      strengthening the workforce
    An intelligence-driven agency using sophisticated technological 
tools to root out terrorists will not succeed without a professional, 
highly trained, fully engaged, and respected workforce. As I stated 
above, the men and women of TSA are on the front line in detecting and 
defeating the terrorist threat. Since becoming the administrator for 
TSA, I have logged thousands of miles to meet with them. I have been 
impressed by their professionalism, work ethic, and enthusiasm. I have 
listened carefully to their suggestions on improving operations and 
opportunities, and have learned from their insights. I also have 
challenged them to hold themselves to the highest standards of hard 
work, professionalism, and integrity that already are intrinsic parts 
of TSA's fabric.
    I also am working to hone the workforce development strategy and to 
develop an environment of continuous learning for TSA employees that 
will help them meet both individual and organizational goals. As we 
continue to implement new technology to meet emerging threats, TSA 
routinely evaluates, updates, and upgrades its technical training 
curriculum. Over the next 3 months, technical training priorities 
include an update to procedures at the passenger screening checkpoint 
and support for the deployment of new technologies such as Advanced 
Imaging Technology.
    We are also working on improving the training for the 
Transportation Security Inspector (TSI) workforce. Along with revision 
of the TSI Basic Course on multi-modal training, we are developing and 
delivering additional courses targeted to specific transportation 
modes. TSA also recently expanded the Surface Transportation Training 
Center located in Pueblo, Colorado, which I visited in July. This is an 
impressive facility that is significantly improving the training we are 
able to provide.
    Through these efforts, we are finding opportunities to integrate 
elements that not only enhance technical skills, but also contribute to 
professional development.
    We are also engaged in efforts to address and resolve workplace 
issues. The Ombudsman at TSA is one of many avenues through which TSA 
employees may raise workplace issues and concerns to see them resolved. 
As I travel around the country meeting with employees, I have invited 
employees to raise issues and concerns to me directly, and I have 
learned that many employees also place great value in established 
communications channels, such as the National Advisory Council, the 
Idea Factory, and local Employee Advisory Councils. Nevertheless, I 
also know from my experience at the FBI that an effective Ombudsman 
program is a valuable resource for unfiltered, candid feedback on the 
state of the workplace environment, and I am committed to its advisory 
role to me and the rest of the TSA leadership team.
                               conclusion
    Thank you for the opportunity to appear before the subcommittee 
today to speak with you about TSA's on-going efforts to ensure the 
safety and security of the transportation domain. I look forward to 
your questions.

    Ms. Jackson Lee. Thank you very much, Mr. Pistole. I look 
forward to us engaging over a period of time.
    At this time, I will remind each Member that he or she will 
have 5 minutes to question the witness. I will now recognize 
myself for 5 minutes of questioning.
    Mr. Administrator, before I begin my line of questioning, 
could I get a response for the record that you will work with 
the committee in the next Congress on a TSA authorization bill 
that will help give you the tools to move the agency forward on 
a number of issues?
    Mr. Pistole. Yes.
    Ms. Jackson Lee. Thank you for both succinctness and great 
enthusiasm, as well.
    Let me start by asking you about the state of the 
transportation security report. I think you should be noted and 
complimented for the on-the-road trip that you have taken to 
many, many airports. You might want to share with us how much 
progress you have made. I appreciate your visit to Bush 
Intercontinental Airport in Houston, Texas, one of the top 10 
airports in the Nation, and for seeing the TSO officers there.
    As you have been touring the assets in this short time, 
noting that you will be in Montreal in the next week, give us 
the 30,000-foot view of what you have and what your priorities 
are for TSA. My time is short, so if you could be--30,000 view 
and get whatever you think is most instructive.
    Mr. Pistole. Thank you, Madam Chairwoman.
    My three top priorities are to ensure that all the men and 
women of TSA look at their mission as a counterterrorism-
focused National security mission enabled by the latest 
technology intelligence. The second is supporting the 
workforce, and third is to engage external stakeholders, 
especially the traveling public.
    There are three things that I am telling every TSA employee 
that I expect of them: That is hard work, professionalism, and 
integrity.
    Ms. Jackson Lee. Thank you very much.
    You heard me give a rendition of an incident that occurred, 
a bystander, an acquaintance, in fact, a lawyer that came up to 
me and indicated how two passengers wrestled down this 
individual on a flight into Las Vegas. So it was not one of our 
air marshals because it was not a plane that had one.
    Air marshals provide a critical layer of security. The 
Federal Air Marshals Service has come under fire for personnel 
misconduct issues, the most disturbing of which is the incident 
in the Orlando office that involved a mock Jeopardy board with 
racial and otherwise insensitive remarks. I understand this 
incident is currently under investigation by the inspector 
general.
    But what can you tell us today about what your plans are 
for reducing personnel problems at FAM, including establishing 
the Office of Professional Development you mentioned in your 
testimony?
    Let me also add, while there are some high-profile 
incidents with FAMs, I believe they provide a critical layer of 
security, and, frankly, we should increase their presence on 
the flight. I want to thank them for their service publicly. I 
believe that the majority of the men and women of FAMs are 
outstanding public servants.
    I have introduced legislation that would double the 
presence of FAMs on inbound international flights, which, as we 
have seen, is a vector that terrorists have tried to exploit, 
most recently on Christmas day. Please provide your comments on 
this legislation, which would also provide criminal 
investigative training to FAMs and codify the FAMs ombudsman.
    So those two-pronged questions, please. I apologize for my 
raspy voice.
    Mr. Pistole. Thank you, Madam Chairwoman.
    I, too, applaud the work of the FAMs. I have met with a 
number of them, and it is a very difficult assignment to be a 
flying Federal air marshal, not on the road but in the air the 
time that they are.
    I am very concerned about any serious allegation of 
misconduct, whether by a FAM or any TSA employee. That is the 
reason that I am creating this Office of Professional 
Responsibility, to ensure that adjudication of the 
investigation of allegations provides a firm, fair process for 
that adjudication.
    That being said, there are a number of opportunities for 
engaging the workforce. Tomorrow I am holding my first senior 
leadership team retreat to focus on a number of things, 
including what our leadership team's vision is for TSA 10 years 
from now. I refer to that as the ``2020 vision'' for TSA: What 
do we want to look like as an agency? How should we act? How 
should we operate? How do we engage the stakeholders? So I have 
asked a number of employees for their vision for the next 10 
years.
    Critical in that and an integral part is a fair 
disciplinary process. So, any time there is an allegation, I 
want to make sure that there is a high level of confidence, not 
only among TSA employees but you and the subcommittee, the full 
committee, and the American public, that if somebody does 
engage in improper activity, they are held accountable.
    I would just add onto your--the training issue, I believe 
that it is a good thing for the Federal air marshals to have 
the criminal investigative training. That is something that I 
am pursuing.
    Ms. Jackson Lee. You are monitoring the investigation of 
the Jeopardy board and the racist comments?
    Mr. Pistole. Yes. I--without going into personnel issues, 
but I believe you are aware that the Federal air marshal 
special agent in charge is no longer there, has been removed, 
and other personnel actions are pending.
    Ms. Jackson Lee. I didn't hear you specifically. The 
language in the legislation talks about doubling the presence 
of FAMs on inbound international flights. I know we have worked 
with TSA and believe we have drawn some of the best input from 
them. So my question is, your reflection on the importance of 
that aspect, to be able to work with FAMs.
    Mr. Pistole. Right. Thank you, Madam Chairwoman.
    The presence of FAMs on many international flights is a 
critical component in our layered security. Given the current 
threat stream, the intelligence that we know is out there about 
terrorists, al-Qaeda particularly, and affiliates, interest in 
still striking aviation as on 12/25, the FAMs may be the last 
line of defense when it comes to that. So we appreciate your 
support for those additional FAMs on international flights.
    Ms. Jackson Lee. I thank you.
    With that, let me recognize the Ranking Member for his 5 
minutes of questioning.
    Mr. Dent. Thank you, Madam Chairwoman.
    Secretary Pistole, the Aviation Transportation Security Act 
authorized TSA to establish trusted passenger programs and use 
available technologies to expedite the security screening of 
passengers who participate in these programs.
    The concept was to allow for the focus on individuals who, 
at no cost to the Government, voluntarily provide biographic 
and biometric information for the purpose of background checks, 
which would free up resources at checkpoints to focus on those 
passengers for whom little is known. To meet this statutory 
provision, TSA created the Registered Traveler program. 
Unfortunately, the last RT vendor ceased operations last year, 
partly because of TSA's rejection of the RT program concept.
    Former TSA Administrator Kip Hawley, for whom I had a great 
deal of respect--I really liked working with him, but he was 
never fond of the RT program. Mr. Hawley was concerned about 
what he called ``clean-skinned terrorists.'' Can you describe 
to us what a clean-skinned terrorist is?
    Mr. Pistole. Thank you, Ranking Member Dent.
    A clean-skinned terrorist is somebody with no pedigree, any 
derogatory information about him or her that would indicate 
that that person is a threat to aviation or anything else.
    Mr. Dent. Okay. As you know, too, the clean-skinned 
terrorist theory never really resonated with many Members of 
the committee, because you have always believed in a risk-based 
approach to homeland security matters. You can never assure, 
you know, zero percent risk. TSA's aviation security layers are 
rooted in the principle of a risk-based approach to security.
    Has TSA deviated from the risk-based principle when it 
comes to the Registered Traveler program?
    Mr. Pistole. Well, first, let me say, Ranking Member Dent, 
that I am open to the Registered Traveler program. I think it 
is a question of the business model and the viability of that 
business model. So I am open to businesses trying to develop 
that. If that helps reduce risk, I am all in favor of that.
    I do have the concern that a person such as the Times 
Square bomber, who would have had very limited, if any, 
derogatory information but for one or two very innocuous items, 
in many respects, could have become one of those trusted 
travelers. So there is always that possibility. But it does 
come down, as you say, to managing risk, and how can we 
allocate our resources against that risk in the best possible 
fashion.
    Mr. Dent. Another question I have, too, that--you know, TSA 
has often taken the position that every individual entering a 
sterile area of an airport must go through a thorough screening 
and that a background investigation, much like that conducted 
for security clearances, isn't necessary. However, Federal 
security directors and TSA personnel, as well as airport 
personnel and maintenance workers, receive background checks 
and are able to bypass security screening.
    I understand you are examining the merits of the RT 
program. When do you expect to complete your review? Will you 
commit to keeping an open mind as you review the program?
    Mr. Pistole. Yes, I do have an open mind to it.
    I don't have a specific time frame. What I have looked at, 
I am open to the business propositions and the opportunities 
that are there. I know there are several airports that have the 
equivalent of a Registered Traveler program. A number of other 
airports, I believe it is 51, have something for their elite 
travelers, which is similar to a trusted traveler, Registered 
Traveler program.
    Mr. Dent. Okay. Then, also, some airports have been waiting 
to get reimbursed by TSA for their investments made to improve 
in-line baggage handling and explosive-detection equipment. 
Congressman Bilirakis I don't think is going to be here today, 
but he requested I ask this question on his behalf.
    What plan does TSA have in place to reimburse airports for 
their costs of installing explosive-detection systems?
    Mr. Pistole. I have conducted a review of that and found 
that there are a number of airports around the country that did 
work shortly after the 9/11 attacks, as you described. There is 
approximately $400 million of that work that was done. So, the 
issue that I am dealing with is, is the traveling public in a 
better situation if I apply that money to airports that do not 
have the improved security equipment in theirs, or do I take 
that money and apply it to those which already do? So, again, 
it gets back to the risk-management issue.
    Mr. Dent. My final comments and questions are, as you are 
aware, there was an expose conducted by the New York TV station 
earlier this week showing what appears to be sloppy security at 
Newark Liberty International Airport. I would note that 
Chairwoman Jackson Lee and I were there earlier this year when 
there was a security checkpoint breach that resulted in the 
dump of the entire terminal, which we remember very well.
    Have you seen the video footage? Can you tell me if you 
have any concerns of what you saw? Also, while I understand TSA 
may conduct its own review of the Newark incident, can you 
commit the TSA's continued cooperation in our Congressional 
review?
    Mr. Pistole. ``Yes'' to the last question.
    ``Yes'' to the video that was on Fox News. It is quite 
disturbing to see what could be significant vulnerabilities in 
perimeter security and access points.
    Mr. Dent. Thank you very much.
    I yield back.
    Ms. Jackson Lee. Thank you very much.
    Mr. Administrator, we are now in the midst of six votes. We 
ask for your indulgence. We will now recess this committee and 
return after votes.
    [Recess.]
    Ms. Jackson Lee. This hearing is called to order.
    I now recognize the gentleman from Texas for 5 minutes of 
questioning.
    Mr. Al Green of Texas. Thank you, Madam Chairwoman. I 
especially thank you and the Members of the committee for the 
unanimous consent for my participation with this august body.
    I would also, Madam Chairwoman, if I may, like to thank the 
staff. I have had an opportunity to peruse the memo, and I want 
the staff to be well aware that I consider it a very fine piece 
of intelligence.
    To this end, I would like to confine my comments to the 
last 16 words in the last paragraph on the last page. The 
sentence reads, ``Due to numerous delays, the TWIC reader pilot 
program's conclusion has been postponed until spring 2011.''
    Let me welcome you to the committee. I am honored that you 
have chosen to help your country in this time of need. I thank 
you, Mr. Administrator, for your service that you have 
rendered. I am especially grateful that you will be working 
with us.
    The TWIC card, as it is called, has been a concern that has 
been raised by a number of my constituents. The concern that 
has been raised by persons on the committee has been that of 
deployment of the reader. The card was deployed before the 
reader was deployed. As I understand it, we have a pilot 
program that is currently under way.
    The question, I suppose, is: Will we make this deadline? I 
have to ask in this fashion--and this is not to demean you in 
any way, but we have given deadlines previously that have not 
been met. My hope is that we can get a final deadline, if I may 
say so.
    So I would like your response, and then I have a couple of 
other questions. So if you can be as terse as possible, it 
would be greatly appreciated.
    Mr. Pistole. Thank you, Congressman.
    I do not have a specific deadline that I would give you 
because I do want to manage expectations as I review the TWIC 
program and the card readers, as you have indicated. As I 
understand, there have been a number of both technological 
issues and funding issues as it relates to the deployment of 
both the readers in a number of areas.
    So I am reviewing that whole process, and I pledge to work 
with you and the committee to come back with a better date 
rather than the spring of 2011.
    Mr. Al Green of Texas. Thank you.
    Another concern is one that relates to replacement cards. 
As you know, these are difficult times, and many of the workers 
that find themselves having to get a new card for various and 
sundry reasons have to pay for the new card out of pocket.
    Is there a means by which you plan to have a process that 
will allow a worker to contest the requirement that it be 
replaced at the worker's expense so that workers can have a 
belief that, if the card malfunctions, then the worker 
shouldn't have to pay for the replacement? But I am not sure 
that the process exists now.
    If it does exist, then I would like to know what it is. If 
it doesn't, can we develop a process that will give us some 
reasonable assurance that there will be some sort of 
ascertainment as to whom it is should bear the cost of 
replacement?
    Mr. Pistole. Yes, Congressman. It seems to me that 
fundamental fairness dictates that, if a card is not working 
through no fault of the person themselves, that there should be 
some mechanism for that person having a replacement card 
without additional costs.
    That being said, I don't have the facts here with me today 
to be any more definitive about that. But I will look into that 
also and get back with you.
    Mr. Al Green of Texas. Thank you.
    If you would, I would welcome a written word on this as a 
response. That way, I can share it with my constituents and let 
them know that, indeed, you and I are trying to resolve this 
issue. I am sure there many other things that are pressing, but 
if you happened to be one of the persons who has had to bear 
the cost of replacing a card, for you, it is an issue of 
paramount importance.
    I thank you for the friendly way that you have approached 
it. My hope is that we will be able to resolve this.
    Finally, in my last 2 seconds, the establishment of an 
Office of Professional Responsibility, I would like to commend 
you for doing so. I think that can be meaningfully done. My 
hope is that it will work to the advantage of the people who 
find themselves having challenges.
    Thank you very much. I yield back, Madam.
    Ms. Jackson Lee. I thank the gentleman for his thoughtful 
questions, and we will follow up with the gentleman, as well, 
as the subcommittee.
    I would ask the administrator to send the letter to the 
committee for its records. We will work with the gentleman on, 
I think, a crucial issue for his constituents and other 
constituents.
    Thank you.
    The gentleman from Pennsylvania.
    Mr. Dent. No questions.
    Ms. Jackson Lee. Mr. Administrator, if I can pose some 
additional questions.
    We recently had what I feel was a profound hearing in July 
on the Surface Transportation Inspection Program. In addition, 
you have heard some recounting of H.R. 2200, which is an 
overall comprehensive bill on transportation security, among 
other issues. You have been making your rounds and have seen 
surface systems across the country, including exposure to some 
facilities in Houston.
    Please tell me your vision for TSA's surface security 
program, including, if you will, addressing the committee's 
concern and the inspector general's concern with the current 
organizational structure of the Surface Transportation 
Inspection Program.
    Mr. Pistole. Thank you, Madam Chairwoman.
    I believe the surface security program for TSA is an 
integral part of the layered security that we apply across the 
non-aviation sector. To that end, the IG's reports have been 
noteworthy in terms of the areas of improvement for TSA as it 
relates to surface transportation.
    So I have reviewed the reports. Looking at the best 
construct within TSA for how that--the surface transportation--
the inspector should report, I know there are different 
opinions on that, and I have not reached a final conclusion on 
that at this point. But I appreciate the subcommittee's 
interest in the issue.
    As you indicated, my visit to Houston, where both the bus 
demonstration, in terms of security measures implemented there, 
and then on the light rail, was illuminating for me in terms of 
opportunities that we have in TSA to assist State and local 
providers of surface transportation, to assist them in their 
efforts to provide the best possible security.
    Ms. Jackson Lee. So let me just determine where you are. 
You are in a study mode?
    Mr. Pistole. Yes. In response to your question about the 
reporting, there are at least two different constructs which I 
have seen: The one being the assistant Federal security 
director, whether it is for law enforcement or for inspection; 
and then the other is out of the actual inspection office.
    So, what I am reviewing is what makes the best business 
sense, both internally to TSA but equally to the providers of 
the service at the local level. So I don't have a resolution of 
that yet.
    Ms. Jackson Lee. So, in essence, there is no firm 
organizational structure now; you are reviewing.
    Mr. Pistole. There is the existing structure, but, given 
the IG's report, that is what I am reviewing.
    Ms. Jackson Lee. Yes. Let me be clear: There is no new firm 
organizational structure.
    Have you put a time line for your review and implementation 
of a new structure in response to--or enhanced structure in 
response to the inspector general?
    Mr. Pistole. I do not have a specific time line on that, 
but I will be glad to get back with you and the subcommittee in 
the near future as to that.
    Ms. Jackson Lee. Would you?
    Would you also--what is the status of the TSA executive 
level? Do you have in place all of the positions that fall 
under your particular leadership?
    Mr. Pistole. There is at least one assistant administrator 
position that is open that we are trying to fill right now. 
That is the--if that is what you are referring to.
    Ms. Jackson Lee. I am.
    Mr. Pistole. Yes.
    Ms. Jackson Lee. And others. That is a Presidential 
appointment?
    Mr. Pistole. No, that is not. That is simply a----
    Ms. Jackson Lee. Civil service?
    Mr. Pistole [continuing]. Civil service hire, yes.
    Ms. Jackson Lee. So how many of those civil service at that 
level do you have remaining vacant?
    Mr. Pistole. I would be estimating. Approximately six 
involving headquarters and field staffing.
    Ms. Jackson Lee. What about FSDs around the country?
    Mr. Pistole. Right, so I am including those as part of 
that. So we have one assistant administrator, and that is for 
intelligence. Then there are--I am trying to think of the 
number of either FAM SACs, the special agents in charge, or 
FSDs. That is why I am giving a ballpark.
    Ms. Jackson Lee. Why don't you get us that information in 
writing? It is very important.
    Mr. Pistole. Yes.
    Ms. Jackson Lee. In fact, why don't I broaden the question? 
Just give us the structure of the TSA with all of the 
leadership positions and a number of FSDs and a number of 
vacancies----
    Mr. Pistole. Sure.
    Ms. Jackson Lee [continuing]. That you are working on. It 
would be helpful if you would give it some considerable thought 
and you have a time line as to how you are progressing with 
that.
    One of the issues, of course, in security is man- or woman-
power. I think that is an enormous challenge, as well, in what 
we are doing.
    Let me continue. We have been told that the TSA ombudsman 
lacks the independence and authority to get personnel issues 
resolved. As a result, employees often avoid the ombudsman and 
withhold their complaints, for fear of retaliation.
    To give this office the independence and weight it needs to 
resolve personnel problems, do you agree that the ombudsman 
should either be moved out of TSA to DHS headquarters under the 
Deputy Secretary, like the citizenship and immigration services 
ombudsman, or should it have its own in TSA that reports 
directly to the administrator?
    Where is the firewall and the comfort level for employees 
to be able to provide the necessary information to this 
particular ombudsman?
    Mr. Pistole. Thank you, Madam Chairwoman.
    I believe the ombudsman needs to be an office and person 
who is empowered with the authority to look into complaints, 
issues that are raised by all members of TSA. I believe it 
should be within TSA, rather than DHS writ large, because of 
simply the size of TSA, with 60,000 employees. I would not that 
ombudsperson's office to be diluted by being at a Department 
level rather than agency level.
    So my plan is to take the ombudsperson position out of its 
current construct in the Office of Special Counsel, which is an 
assistant administrator level, and raise that up so it is a 
direct report to the deputy administrator and myself.
    Ms. Jackson Lee. Does that mean you will physically have 
that office in a location that is secure and comfortable for 
individuals who need to utilize the services of the ombudsman?
    Mr. Pistole. Yes.
    Ms. Jackson Lee. Again, these questions that you are saying 
``yes'' to, if you can provide us with a time line in writing 
as to when you expect that to be up and running, I think that 
is an important part of professional development.
    Competition is critical to ensuring our security system is 
as cost-effective and efficient as possible. When will TSA 
provide airports and airlines the opportunity to select from 
qualified vendors in submitting biometric and biographic 
information for criminal history records checks and security 
threat assessments, as directed in the TSA Reauthorization Act?
    The committee is concerned because TSA has just extended a 
no-bid, sole-source contract for two other aviation channeling 
programs, even though there are qualified service providers.
    Mr. Pistole. Without knowing the specifics of the issue 
that you are referring to, Madam Chairwoman, my commitment to 
you and the subcommittee and to the full committee is to ensure 
that in each and every opportunity that there are opportunities 
for all small businesses, minority-owned businesses, anybody 
who is qualified to equally compete for contracts with TSA.
    So I would be glad separately to get the details that you 
are referring to and look into those and get back with you and 
the subcommittee.
    Ms. Jackson Lee. We should probe it just a little bit more, 
Mr. Pistole. It appears here that the TSA extended the contract 
in a no-bid, sole-source contract for the channeling. You still 
may not have all the facts, but I think you should dwell on 
sole-source and you should dwell on the challenges that we 
have--that was brought to our attention, of the ability of 
small, minority, women-owned businesses to even get an 
opportunity to respond.
    Frankly, I think this is going to be something that is 
required in writing. I simply want to know why. Why does this 
have to be that approach, when--all of us who serve on this 
committee probably have more small businesses offering various 
new technology and capabilities. As we have these hearings and 
as they are able to reach our offices, there seems to be an 
abundance of these individuals and small businesses. I think 
you know that it is the President's commitment that we give 
opportunities to small businesses in the fair and legally sound 
manner of which the procurement process has to operate under.
    Can you just provide me with your thinking? What kind of 
leadership will you have, No. 1, to answer the question I have 
just given--and you may have to do that in writing--that will 
give us a better approach and give us a better attitude that 
TSA is serious--because TSA's business is around America--about 
the opportunities for the same kind of technology or the same 
kind of services to be rendered by small, medium, minority, and 
women-owned businesses?
    Mr. Pistole. Right. Thank you, Madam Chairwoman.
    My philosophical approach, as you say, is, I am a strong 
proponent of equal opportunities for small businesses, 
minority-owned, women-owned businesses that can compete. I want 
to make sure that there is an even playing field for that, 
recognizing the challenges that on major acquisitions, such as 
AIT and others, small businesses simply would not be able to 
compete because of their capacity development issues. Some 
contracts obviously require a classified background in order to 
get into that, and so that can pose a challenge to a small 
business oftentimes. But for all those vendors that we can do 
business with, I support that notion wholeheartedly. I know the 
Secretary does.
    I just saw figures, I believe, last week on the percentage 
of contracts that the Department and TSA let to small business, 
minority-owned business, women-owned businesses, and it is 
above the Government average. So I am a strong supporter of 
that.
    Ms. Jackson Lee. Well, let's probe this just a little bit 
more. I do understand that. That is why I would like you to 
give some thinking to this. That is, when you have that kind of 
sophisticated technology in AIT, there are possibilities of 
utilizing the larger, more stable or experienced company, or 
company with the technology, and then require percentages of 
MWBs to subcontract for a variety of needs that the 
installation may call for or other aspects.
    I would ask you to--or let me just ask you to muse on that, 
to give your thoughts about that. Because I think we should ask 
very long and hard questions on how we can best serve the 
American public, how we can be secure, and how we can answer 
this question of participation.
    Mr. Pistole. I agree wholeheartedly, Madam Chairwoman. So 
it is something that, frankly, to this point, I have not been 
into the details on any acquisition, and I don't necessarily 
plan to be involved in any particular ones, but I can set the 
tone from the top, as to what I expect. If there are 
subcontract opportunities in those large acquisitions, then I 
fully support that.
    Ms. Jackson Lee. I appreciate it. Again, why don't we take 
all these questions in note for writing and submission back to 
the committee?
    Let me also add that TSA is one of the more prolific users 
of technology. One of the hearings that this committee has held 
is the transition of approval from S&T, Science and Technology, 
out to the users of the technology.
    What kind of efforts will you utilize to have a connection, 
have a collaboration with Science and Technology to ensure that 
products that might be helpful in securing the Nation move 
quickly?
    I know you have meetings with the Secretary. You all have 
your own internal meetings. But that is something that we need 
the users of the technology to be very vocal about, on how that 
process works.
    Mr. Pistole. Yes, Madam Chairwoman. I agree in terms of--
and I have met, as you have mentioned, with Dr. Tara O'Toole 
several times from S&T. My issue is wanting to make that what 
S&T does is all requirements-driven from TSA, from my 
perspective, and that we are working collaboratively to come up 
with the best solutions to the gaps that we currently have. So 
that is the perspective I bring to the job.
    Ms. Jackson Lee. Another issue I find very important--let 
me go back to airports and security of airports and focus on 
several issues.
    I have a lot of friends and colleagues, and so let me say 
to them, all my friends in New Jersey, my colleagues in New 
Jersey, this is not a pointed effort to highlight the assets 
that are there. But I think my Ranking Member indicated that we 
were personally in Newark airport when the first incident 
occurred where there was a questioning of who went through the 
wrong direction. At that time, the airport was literally shut 
down.
    We have had now another incident in Newark airport 
regarding inspections over the last 48 hours. We have had, 
certainly, a history of concerns that may not have been 
directly terrorist-related but they are inspection-related in 
Miami airport with drug-running, if you will.
    So airports are still in the eye of the storm. Do you view 
it necessary within your area to have a focused task force, 
maybe small in size, that raises the red flags as to what 
directions we can give to airports so that we are not looking 
at a tragedy because we overlooked mishaps or failures in 
security? I am concerned about that.
    Airports are cities. People are there almost 24 hours a 
day, to their dismay. They have their own mayor and personnel 
that come and go to work, and then they have the guest that 
comes, of whom they have to determine their legitimacy for 
being there, our passengers, the traveling public.
    But it seems that we are always looking beyond the airlines 
and the incidents that take place in-flight, which we now have 
done and made major changes, but the airports are appearing to 
be so vulnerable. I don't see the sense of urgency in dealing 
with the security in the airports.
    Mr. Pistole. You have touched on a significant issue, Madam 
Chairwoman.
    In terms of the layered security that we in the U.S. 
Government apply to aviation security, recognizing that we 
cannot be all places at all times in all instances and for all 
people, and so many of the services that you describe are 
contracted out, as in the case of Newark with the access points 
and perimeter security, which the airport authority contracts 
out.
    That being said, we provide security directives and 
instructions to each of the 450-plus airports in terms of what 
their security perimeter and access points should look like, 
and so we are reviewing that Newark situation.
    My question coming out of that review is, is this a 
systemic issue going beyond Newark airport? Are there other 
airports similarly situated that perhaps have lax security that 
could expose some vulnerabilities and gaps in this layered 
security that this news report apparently uncovered?
    So when I get those facts, I will look at the propriety of 
establishing this small task force, as you suggest. If it 
appears there are systemic issues, then we have to roll up our 
sleeves and have quite a bit more work to do in working with 
those airports that may have those vulnerabilities.
    Ms. Jackson Lee. It is a very difficult divide that you 
have to work with because there are airport authorities, there 
are State authorities, there are city governments. The question 
becomes whether or not some of these contracts that are 
directly related to the security of the traveling public and/or 
personnel on the grounds of the airport have to be scrutinized 
even more.
    Newark is a very large area, and it is located in a very 
unique area, as some airports are. We certainly appreciate--I 
have just spoken about small businesses, but I think we have to 
ask the question whether that is where they should be.
    We made the decision on TSO. Certainly, that is a financial 
burden on this Government. But I think, by and large, Members 
have agreed and the traveling public has agreed, as we have 
developed the professionalism of TSO officers and their pride 
in the position, that we should look to be looking at some 
other options as well.
    I want to continue that line of reasoning, and I just have 
one or two other questions. But I want to pursue the incident 
more thoroughly with the Jeopardy board that was noted, and you 
have that under investigation. But that deals with racial 
issues. I think it is important for you to add to your report 
what efforts you are utilizing, in a very diverse workforce, to 
go ahead on into discriminatory practices.
    I would like to get, again, a report to this committee on 
the demographics of TSO officers and the percentages of 
supervisors and managers, which is one of the concerns we hear, 
as part of the traveling public, that there is not enough 
promotion opportunity and growth opportunity for women and 
minorities and others, if you will. That is extremely 
important.
    Mr. Pistole.
    Mr. Pistole. Yes, thank you, Madam Chairwoman. It is 
extremely important to me also, both in my prior job and now in 
this job as the administrator for TSA.
    I have been pleased to see the diversity at TSA, not only 
in the traditional diversity sense, where there are about 40 
percent of all employees are women. I believe it is 45 percent 
are minorities, including women, blacks, Hispanics, and others. 
So it is a high percentage.
    I also am focused on the leadership team. I have a chart 
that I got when I first started, just the top 19 executives at 
headquarters, basically for name familiarization, to figure out 
who is who and where their areas are. I got that on my first 
day. I glanced at that again today in anticipation of this 
hearing, and, out of those 19, eight are minorities. So that is 
obviously a much higher percentage than most areas of the 
Federal Government and in many businesses, of course. So I am 
looking at that and, again, pleasantly surprised by those 
numbers and perspectives.
    The other part of the diversity, though, is, because TSA is 
a new agency, in the last 9 years, I have been very impressed 
with the diversity of experiences in backgrounds that people, 
both TSOs and in leadership positions, bring to TSA. So there 
is a richness and wealth of experience from many different 
agencies and outside the U.S. Government, from aviation, from 
surface, all these different areas. So it is, again, a rich 
tapestry of individuals who compose the TSA workforce.
    Ms. Jackson Lee. Do you have under your jurisdiction that 
are out in the field office personnel that come under TSO, or 
are they all screeners?
    Mr. Pistole. So the----
    Ms. Jackson Lee. The TSO personnel that is out in the 
field, are they predominantly screeners?
    Mr. Pistole. Yes.
    Ms. Jackson Lee. You don't have any office types that are 
in the----
    Mr. Pistole. Oh, I see. No, all the transportation security 
officers are security officers who perform the screening 
function, right.
    Ms. Jackson Lee. Have you made accommodations for those 
individuals who have to wear certain headdress and have some 
religious practices that they need to advance?
    Mr. Pistole. I am not aware of that, and I will have to get 
back with you on that.
    Ms. Jackson Lee. I will be more specific: Religious 
headdress that they have to wear. Religious prayer practices, I 
need to know whether you are addressing that question, as well.
    So let me just be very, very clear. I do want to have a 
good, strong review as it relates to discriminatory practices 
and some record of strong messages that will go out from you, 
as the leader of the agency, that this is unacceptable, 
intolerable behavior. Because sometimes individuals can be 
reprimanded and they take it lightly. But I think it is 
important, because we are dealing with security issues, that 
there is a certain camaraderie that is going beyond anyone's 
difference.
    Mr. Pistole. Right.
    Ms. Jackson Lee. Several key rules for surface modes 
required by the 9/11 Act are now more than 2 years overdue. TSA 
has decided to write a consolidated rule for rail, transit, and 
intercity bus employees, as well as a consolidated rule to 
govern security assessments and plans for the same three modes.
    What is the status of those rules? When will TSA issue the 
NPRM for each rule?
    Mr. Pistole. I will have to defer on the specifics in terms 
of each rule.
    It is a concern to me, as it relates to the 9/11 
recommendations, that many have been completed but many have 
not, for various reasons. I have appointed an accountable 
executive within my leadership team to focus on those 
recommendations that have not been completed and the reasons 
why on a weekly basis.
    So I will have to look at the specifics. I mean, I have a 
chart of what has been done. I know the rulemaking process can 
be cumbersome at times, given comments and things. So I owe you 
a get-back on that, Madam Chairwoman.
    Ms. Jackson Lee. I think the simple question is: What is 
the status of the rules? In particular that I am asking about, 
surface transportation.
    Mr. Pistole. Okay.
    Ms. Jackson Lee. They may not have even begun, and you need 
to let us know if that is the case. They are over 2 years due. 
So they may not have even begun. So I just want to make sure 
that we get that.
    I want to pursue the comments that were made in the 
Chairman's opening statement. As I do that, be thinking of this 
question, as well, which is sort of connected to the smooth 
operations between the FSD and the airport personnel. Many 
airports we go to, it is a smooth relationship.
    But I would like to question whether there are directives 
coming from headquarters as to how that relationship should be 
formed, how often should they be meeting, and the issues that 
they should be discussing.
    To give you an example in point--I have mentioned it at 
this committee. I think--and I will just be very clear--
equipment at Houston Intercontinental, as of last week, 10 days 
ago, apparently was not in place. It was not in place because 
of local permitting issues.
    This is in no reflection of the excellent team there. But I 
am speaking because there might be a team in Nashville, there 
might be a team in Denver, there might be a team in 
Philadelphia who are having the same local issues that are even 
beyond the boundaries of the airport, because permitting is 
done way downtown, away from most airports.
    Let me pause and ask, are you developing some way of 
ensuring that the team is working together, that if they have 
these kinds of concerns, what is the--not concerns, issues--
what reach do they have? Who do they have to call?
    You are not going to find the FSD trying to reach to the 
local permitting office, the local building permits office. So 
they are at a disadvantage. How are you working through those 
issues?
    Mr. Pistole. So the process, Madam Chairwoman, is, as the 
Office of Science and Technology works with the FSD to identify 
airports that are ready for the deployment, in terms of a 
physical layout, the footprint, and all those things, then they 
work from the Office of Science and Technology to acquire the 
permit to do the process, so it is not incumbent upon the FSD 
to do that. They have other responsibilities, and this is 
really a technology deployment issue. So there is an 
infrastructure, a team in place to do that.
    I learned of the situation in Houston after our visit there 
and was disappointed to hear that that had not been 
anticipated, and, not pressure, but just reason brought to bear 
to get that permitting process done on time, so, as the 
equipment is available, then that can be deployed immediately.
    My concern with the whole process, which I know you share, 
is that that is a potential vulnerability or a gap that we 
have. Every day that that equipment is in our possession and 
could be deployed but is not is a potential vulnerability and a 
gap we have. So I have asked that the review be done on what 
happened there and are there lessons learned that we can apply 
to other situations. I am not aware of other airports where 
that is currently on-going.
    Ms. Jackson Lee. That is what I hoped that you will do, and 
I would appreciate it greatly.
    The President has indicated his support for affording 
collective bargaining rights to TSA employees. Secretary 
Napolitano said last December before the Senate Commerce 
Committee that she thought it should be done without 
sacrificing--or thought it could be done without sacrificing 
security. During your confirmation, you said you would conduct 
your own review of the issue.
    TSA employees have been very patient in waiting for this 
decision to be made. What is the status of your review on this 
issue? We in this committee and the subcommittee have submitted 
this language previously in a number of bills. Do you support 
collective bargaining rights for TSO officers, transportation 
security officers? When will we see some movement on this 
issue?
    Mr. Pistole. Thank you, Madam Chairwoman.
    I have been conducting a review, as requested by the 
Secretary, and that has taken a two-fold approach. One is 
through my town hall meetings, my personal engagement with all 
employees, both at headquarters and the field. Then the other 
is an outside group that has come in and done a number of 
interviews of leaders in other agencies, primarily in the 
Government but also those in the private sector, to assess 
whether collective bargaining would or could have a negative 
impact on the security operations.
    That report is nearly complete. I will review that report 
and then make a decision. I will, obviously, discuss it with 
the Secretary. But the bottom line is whether collective 
bargaining has an adverse impact on security. If that is not 
the case, then the decision tree becomes, one, is it in the 
best interest of the TSOs? As you know, a number of them are 
already union members without collective bargaining rights.
    What I have heard in my town halls is a frustration on 
several levels, as identified by the Chairman, in terms of pay 
and supervision and performance evaluations and things that may 
or may not be addressed by collective bargaining. So that is 
part of what I am looking at.
    I should have my--I want to get this review. Then my review 
will be in the near future. I don't have a specific date for 
completion.
    Ms. Jackson Lee. Can you give us some rounded time frame, 
weeks or 2 weeks or next week?
    Mr. Pistole. Definitely not next week, because I will be in 
Montreal for the ICAO. I would say weeks rather than months, if 
that is what you are talking about, yes.
    Part of that is, obviously, discussing it with the 
Secretary. Then, whether she makes the decision or I make the 
decision, I am not sure on that.
    Ms. Jackson Lee. Well, let me indicate to you that we can't 
argue with thoughtful, constructive review. What I will say to 
you, for those of us who came before you, we have actually been 
discussing this issue since 9/11, since the creation of TSO and 
the Transportation Security Administration and TSO officers. We 
have been discussing this issue since that time.
    So I would say that we have been somewhat delayed. We now 
have an administration, as we understand it, that both the 
President and the Secretary have gone on official record for 
their support. I cannot imagine that there will be much delay.
    I am not going to get into the discussion of which union. 
You have some direct conversation with TSO officers. We are not 
privy to that. But I think the overall issue is the right for 
an opportunity to engage and to be able to raise issues of your 
work conditions.
    You have already made the point, as the Chairman made, and 
that is that there is an unhappiness with the pay scale. It is 
not equal to, as I understand it, the civil service. Equally, 
the part-time structure is a very challenging structure, and 
frustrating. Certainly, we are glad people are working, but if 
it doesn't create a pathway of growth, professionalism, then I 
really think you need to look at it, and I think you need to 
seriously look at this question of not engaging.
    I didn't hear you say that you--did you say that you had 
opposition, while you were out on your tour, to this idea?
    Mr. Pistole. Well, I have asked for the pros and cons from, 
again, the TSOs, from the managers, the supervisors, the 
executives. So I have received both pros and cons from 
different people that I have talked to.
    If I could say, Madam Chairwoman, I greatly appreciate your 
personal interest in and the subcommittee's interest in the 
well-being and benefits of the TSOs, because I know you 
appreciate the work that they do every day, often without any 
acclaim or recognition, often with complaints. So that is 
important to me, to know that you and the subcommittee and the 
full committee are as interested in and support the men and 
women of TSA as you do. So, appreciate that.
    Ms. Jackson Lee. Well, we look forward to working with you.
    I know that the reporters will probably pause on this 
analysis. I thought that you had mentioned--and you just said 
that you got the pros and cons. I was going to use this 
example, and I think I will go ahead and do so, knowing that I 
am probably way beyond jurisdiction of this committee.
    But we have been debating Don't Ask, Don't Tell. There has 
been a lot of representation as to what the troops would want 
and not want. I only raise the question--you don't know until 
the process is implemented. You won't know about the 
opportunities for engagement on work issues until it is 
implemented.
    We have seen it implemented in the police and fire, 
particularly, where we have something called a ``meet and 
confer.'' I am not suggesting that, but what I am saying is--
and jurisdictions have survived when public employees have had 
the ability to have a discussion.
    I would imagine that, as you review this, you will look at 
it and be engaging in the unions and find the best commonality 
that you can to protect America and also to provide for these 
very, very important workers who are on the front lines.
    My simple message is: We won't know until we try it. I just 
think it is important. I urge you to have a review that is as 
expeditious and thorough so that we can try it and have an 
opportunity for workers to be able to feel both appreciated 
and, as well, able to communicate their concerns to their 
management.
    So let me thank you very much. I think we have given you a 
litany of questions and reports, all of which will not be due 
next week. We recognize the work that has to be done. But I 
will say to you that I can't think of a more serious 
responsibility within the DHS, which most people now recognize 
has really become the armor against terrorists who may come 
from anywhere. You are very keenly engaged in the 
transportation area, where so many view it as a target that is 
attractive to terrorists. That was the title of this hearing. 
So, we thank you for contributing to it.
    There being no further questions for our witness, I thank 
Administrator Pistole for appearing before the subcommittee 
today and for your patience. The Members of the subcommittee 
may have additional questions for you, and we ask that you 
respond to them expeditiously in writing.
    This hearing is now adjourned.
    [Whereupon, at 4:47 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions From Chairwoman Sheila Jackson Lee of Texas for John S. 
                                Pistole
    Question 1. When airports send personnel information to TSA and the 
FBI for a determination on whether they can issue an employee an 
airport security credential they use the clearinghouse operated by the 
American Association of Airport Executives (AAAE). As this is a sole 
source contract, some airports have complained that there are other 
channeling service providers that could do the same function for less 
than what AAAE charges. What is the status of TSA opening up this 
channeling service to other vendors?
    Answer. The Transportation Security Administration (TSA) supports 
allowing choice in channeling for airport and aircraft operators, and, 
as a part of its Aviation Channeling Services Project, is working 
diligently to create a path for additional entities to provide aviation 
channeling services. On October 28, 2010, TSA released a draft copy of 
the Project's technical requirements on the website for Federal 
business opportunities, ``FedBizOpps.Gov'' to provide an opportunity 
for review and comment. Specifically, the modified pre-solicitation 
states:
    ``The Transportation Security Administration (TSA) is seeking 
qualified vendors for its Aviation Channeling Service Project (ACSP) to 
support the vetting of airport workers and aircraft operators. The 
estimated population is approximately 2,100,000. The anticipated 
geographic scope is the United States, and its possessions and 
territories. TSA is contemplating the establishment of Designated 
Aviation Channelers (DACs) based on the overall performance of each 
Offeror's technical solution for meeting TSA requirements. DACs will 
provide choice to airport and aircraft operators for channeling 
services for aviation populations. The Government plans to certify not 
more than three vendors on the basis of the most advantageous 
proposals. Responses shall be evaluated against the ACSP Solicitation, 
ACSP Technical Specification, and other identified information. The 
selection of DACs will be based on factors set forth by the Government. 
The selected DACs will be required to meet Federal system Certification 
and Accreditation requirements before providing services to regulated 
aviation stakeholders. Once selected, the DACs must support and 
maintain their technology solution during the qualification testing at 
no cost to the Government, including but not limited to the design, 
development, maintenance, support, operations, etc. If the Offeror's 
system passes qualification testing and is deemed acceptable by the 
Government, the Offeror would be placed on the TSA ACSP DAC List.''
    Soon after the review and comment period, TSA will issue the final 
technical specification and solicit proposals for providing the 
aviation channeling services that the American Association for Airport 
Executives (AAAE) now exclusively performs under their current 
Agreement with TSA.
    Question 2. What efforts is TSA taking to ensure that emerging 
technologies, especially from small businesses, are being approved and 
used? When will TSA next review potential air cargo screening 
technologies?
    Answer. The Transportation Security Administration (TSA) and the 
Department of Homeland Security's (DHS) Science and Technology 
Directorate (S&T) have several means in place for small businesses to 
propose emerging technologies. TSA maintains a Broad Agency 
Announcement (BAA) encouraging submission of new technologies, while 
also maintaining an on-going BAA specifically for air cargo technology 
qualification. S&T has its respective BAA soliciting new technologies 
and also employs the System Efficacy through Commercialization, 
Utilization, Relevance, and Evaluation (SECURE) and FutureTech outreach 
programs, as well as the Small Business Innovative Research program. In 
accordance with the existing TSA air cargo BAA, TSA intends to offer at 
least one qualification opportunity for products in each of the major 
technological groups during fiscal year 2011. Through this process, 
businesses of all sizes have equal opportunities for qualification; 
including several small technology vendors whose products have been 
approved.
    Question 3. What is TSA doing to include airport authorities early 
in the planning and deployment process for AIT machines? Would you 
support giving airport authorities a formal role in the process? Will 
TSA reimburse airports for terminal modifications associated with AIT 
installation?
    Answer. The Transportation Security Administration (TSA) conducts 
design discussions with key stakeholders. Relevant stakeholders agree 
upon Advanced Imaging Technology designs prior to deployment. Airport 
authorities already have a significant role in the deployment process, 
as TSA works through each airport's permitting process before 
proceeding with any work. Derived from the ``American Recovery and 
Reinvestment Act'' in which $1 billion was allocated to TSA for 
aviation security projects ($734 million of which was allocated for 
checkpoint explosives detection technology), TSA funds construction 
costs associated with deploying new technologies into a space provided 
by the airports. TSA does not plan extensive terminal modifications in 
conjunction with AIT installations.
    Question 4. Since TSA is now planning to deploy about 10 new 
technologies to passenger checkpoints, how will it ensure that these 
different technologies are successfully integrated? Has TSA updated its 
passenger checkpoint program strategy to reflect the increased use of 
AIT?
    Answer. The Transportation Security Administration (TSA) has 
integrated the Advanced Imaging Technology (AIT) into its passenger 
checkpoint screening protocols and has updated its standard operating 
procedures to include the AIT. TSA has worked closely with the 
Department of Homeland Security's Science and Technology Directorate to 
develop comprehensive technology roadmaps that guide the agency's 
security technology acquisition activities and timelines. The 
integration of AIT systems into the checkpoint strategy is a key 
component of those technology roadmaps.
    Question 5. Over the past few years, TSA has increased the number 
of Behavioral Detection Officers at airports Nation-wide. Does TSA have 
any way to measure the effectiveness of its Behavioral Detection 
Officers to justify this expansion? Does TSA perform covert testing on 
Behavioral Detection Officers like it does with passenger and baggage 
screeners? Since GAO's report on SPOT was released in May, has TSA 
considered any of the recommendations provided in the report?
    Answer. The effectiveness of the Transportation Security 
Administration's (TSA) Screening of Passengers by Observation 
Techniques (SPOT) program can be measured in both scientific and 
practical terms.
    TSA is currently working with the Department of Homeland Security's 
(DHS) Science and Technology (S&T) Directorate to complete a study to 
scientifically validate the effectiveness of the SPOT program. 
Preliminary analysis indicates strong support for SPOT as an effective 
aviation security measure. A final report is expected in December 2010 
and may contain Sensitive Security Information (SSI). TSA would be 
pleased to share the results of this study in a closed meeting with the 
committee.
    From a practical standpoint, the SPOT program has significantly 
increased TSA's ability to detect potential suspicious behavior and 
activities at our Nation's transportation venues. TSA maintains records 
of and performs analysis on the outcomes of each instance where an 
individual is referred for additional screening or scrutiny by Behavior 
Detection Officers. From January 2006 through July 2010, TSA has 
documented over 25,000 cases of individuals referred by Behavior 
Detection Officers who were found to be in possession of prohibited 
and/or illegal items. During that same time frame, more than 1,600 
individuals referred by Behavior Detection Officers were subsequently 
arrested by law enforcement agents.
    TSA has concurred with each recommendation provided in the GAO's 
report on SPOT. Specific projects are currently underway that include 
the implementation of eight of the eleven recommendations. TSA 
continues to explore solutions that address the remaining 
recommendations.
    Question 6. Following the August 3, 2010 deadline for screening 
100% of cargo on passenger aircraft, has the cargo industry experienced 
any supply dislocations due to the 100% screening mandate?
    Answer. Based on information provided by airlines and freight 
forwarders, industry has not experienced supply chain dislocations. The 
Air Forwarders Association and Express Logistics Association have 
conducted surveys of their membership and have reported no issues as a 
result of the August 3, 2010 deadline.
    Question 7. How is TSA verifying that C-C-S-P participants are 
properly screening the cargo within their jurisdiction?
    Answer. The Transportation Security Administration (TSA) Office of 
Security Operations (OSO) has developed a Compliance Work Plan, which 
requires that all Certified Cargo Screening Program (CCSP) 
participants, specifically Certified Cargo Screening Facilities (CCSF), 
receive two separate and comprehensive regulatory compliance 
inspections per year. Included in these inspections are reviews of 
cargo screening requirements. Transportation Security Inspectors (TSI) 
also use outreach visits with new CCSFs to discuss all regulatory 
requirements.
    Additionally, TSA's Cargo Compliance Program requires risk-based 
inspections. Any entity with past findings of non-compliance or 
investigations into alleged or actual non-compliance is required to be 
inspected more frequently.
    TSA's Cargo Compliance Program has provided training specific to 
screening procedures and technology familiarization for current TSIs. 
In-depth procedural and hands-on technology training is taught at the 
basic multimodal inspector course. TSA plans to provide further 
training to existing TSIs, which will also support planned cargo 
screening testing for this fiscal year.
    Question 8. In TSA's evaluation of products and technology for use 
by C-C-S-P private sector cargo screeners, the agency encouraged 
companies to submit technology for approval. Yet, the standards by 
which the companies' products were being evaluated were classified. 
Please tell me the exact steps that TSA took to ensure that small 
businesses were given the necessary clearances to participate in the 
evaluation process.
    Answer. The standards used to evaluate the Certified Cargo 
Screening Program (CCSP) proposals were not classified as defined by 
various Executive Orders (including Executive Order 13526) and as such 
security clearances were not necessary to participate in the program. 
Instead, the CSSP standards were determined to be Sensitive Security 
Information (SSI) as described in 49 CFR Part 1520. TSA has a 
documented process to perform security threat assessments on interested 
parties that require access to SSI during competitive acquisitions as a 
prerequisite to receiving access to this information. This process 
ensures that small businesses, as well as large businesses, are able to 
receive this type of information while also allowing TSA to safeguard 
sensitive information.
    Question 9. The charter of the Aviation Security Advisory Committee 
expired in April 2010. One of the primary functions of the advisory 
committee was to facilitate stakeholder input across TSA security 
policies. What is TSA doing to ensure consultation with stakeholders on 
security policies, and will the ASAC be meeting again and on a regular 
basis?
    Answer. Charter renewal and membership activity on all Department 
of Homeland Security (DHS) advisory committees is under review by DHS 
to assure the advisory committees are effectively used and an efficient 
expenditure of resources by the participants. Pending completion of 
this review the Transportation Security Administration (TSA) continues 
to engage stakeholders in a number of ways:
  <bullet> Networked Approach.--TSA offices function as the primary 
        points of contact for the transportation sector, practicing 
        regular communication (including intel sharing), conducting 
        security assessments, sharing best security practices, and 
        including stakeholders in security planning activities.
  <bullet> Critical Infrastructure Partnership Advisory Council 
        (CIPAC).--TSA collaborates with stakeholders through the 
        Transportation Systems Sector Government Coordinating Council 
        and Sector Coordinating council, as part of CIPAC.
  <bullet> Transportation Security Information Sharing Plan.--TSA 
        provides comprehensive sector analysis and has the ability to 
        reach out extensively both within the sector and with other 
        sectors, to share critical information.
  <bullet> Regular Outreach and Coordination.--This occurs through 
        blogs, briefings, regularly scheduled conference calls, auto 
        notification/alert systems, and web boards and other internet 
        portals.
    Question 10. The Notice of Proposed Rulemaking for the aviation 
repair station security program lacked specificity on staffing 
requirements to effectively oversee the repair station security 
inspection program. Will TSA conduct a staffing study to determine 
requirements for effectively overseeing a repair station security 
program?
    Answer. The Transportation Security Administration (TSA) has 
conducted a review of staffing requirements for the repair station 
security inspection program. The study found that additional staffing 
will be required to fully implement the security program and inspection 
plan. TSA is developing the strategy needed to carry out and enforce 
the new regulations that will be promulgated as a result of the rule 
making.
    Question 11. Some stakeholders informed the committee that they 
have not been consulted on the repair station rulemaking in several 
years. How will TSA reach out to stakeholders for input on how to 
implement an effective repair station security program?
    Answer. The Transportation Security Administration (TSA) issued a 
Notice of Proposed Rulemaking and published it in the Federal Register 
on November 18, 2009 for public comment. The comment period was 
extended to make sure that all interested parties had an opportunity to 
provide comments on the proposed regulations. Throughout the rulemaking 
process, TSA has engaged the Repair Station operators and associations 
for both foreign and domestic Repair Station operators, through 
meetings and site visits. These visits provided valuable insight into 
the facilities and existing security procedures already in practice. 
TSA hosted a listening session on October 26, 2010 at which 22 
representatives from major repair station associations and security 
representatives from repair stations had an opportunity to review and 
provide feedback on a draft of the Aircraft Repair Station Security 
Program (ARSSP). A second such meeting will be held as an additional 
event at a repair station convention in Singapore in November 2010. 
Finally, TSA plans to conduct significant outreach to all affected 
repair station operators to ensure understanding of and compliance with 
any new regulations that may be published as a Final Rule in the 
future.
    Question 12. How will TSA control the dissemination of Sensitive 
Security Information in its oversight of repair stations, particularly 
those in foreign countries?
    Answer. The only Sensitive Security Information (SSI) that the 
Transportation Security Administration (TSA) will initially generate in 
support of this rule is the Aircraft Repair Station Security Program 
(ARSSP) document. This document will only be provided to foreign and 
domestic Repair Stations that will be required to adopt and implement a 
security program. TSA will follow all appropriate markings, 
protections, and release protocols required by 49 C.F.R. Part 1520 for 
each release of the document. Repair stations, both foreign and 
domestic, will then be required to comply with the SSI regulations 
regarding protection of the security program. As part of TSA's repair 
station inspection program, TSA will address whether SSI is treated 
appropriately.
    Question 13. What is the status of the final rulemaking for general 
aviation security programs?
    Answer. On October 30, 2008, the Transportation Security 
Administration (TSA) published the Large Aircraft Security Program 
(LASP) Notice of Proposed Rulemaking (NPRM). This NPRM proposed 
security rules for aircraft operators, including General Aviation 
operators. TSA received over 7,000 comments from the public on this 
NPRM. TSA is now in the process of developing a Supplemental Notice of 
Proposed Rulemaking (SNPRM) and anticipates that it will publish the 
SNPRM for comment during the summer of 2011.
    Question 14. What steps, if any, has TSA taken to identify and 
prioritize the need for security enhancements at general aviation 
airports?
    Answer. The Section 1617 of the ``Implementing Recommendations of 
the 9/11 Commission Act of 2007'' Pub. L. 110-53, 121 Stat. 266, 488-
489 (2007) (codified at 49 U.S.C. 44901(k)) required the Transportation 
Security Administration (TSA) to develop and implement on a risk-
managed basis, a standardized threat and vulnerability assessment 
program for general aviation (GA) airports. In addition, TSA was 
required to evaluate the feasibility of a program to provide grants to 
GA airport operators for projects to upgrade security at such airports. 
While TSA has determined that a grant program is feasible, the agency 
has not yet received appropriated funding to implement or develop this 
program. Furthermore, TSA conducted a survey of approximately 3,000 GA 
airports to determine a baseline of vulnerabilities as well as to 
identify possible mitigation measures that are available to GA 
airports. TSA is currently in the process of validating the results of 
the survey by visiting a percentage of those participating GA airports. 
A final report will be provided to Congress upon completion.
    Question 15. When will foreign carriers operating inbound and 
outbound international flights, as well as those operating overflights 
flights in U.S. airspace, be required to participate in the Secure 
Flight program?
    Answer. As of October 20, 2010, Secure Flight has been implemented 
for 100 percent of all 68 covered U.S. air carriers and 100 out of the 
125 covered foreign air carriers. This constitutes 98 percent of all 
domestic and international enplanements. The Transportation Security 
Administration (TSA) anticipates that the remaining foreign air 
carriers will implement Secure Flight by December 31, 2010. As of 
October 31, 2010, all covered foreign air carriers are required to 
request and collect Secure Flight Passenger Data (SFPD) which includes 
full name, gender, date of birth, and Redress Number (if available) for 
flights into and out of the United States. Beginning November 1, 2010, 
air carriers that do not provide TSA with SFPD for passengers will be 
inhibited by the Secure Flight program from issuing passengers their 
boarding passes until the SFPD is provided.
    Question 16. Some airports have not been reimbursed for terminal 
modifications made to install checked baggage explosives detection 
systems because they made expenditures before a reimbursement program 
was established by TSA, and now these airports are at the bottom of the 
list for receiving reimbursement. What process will TSA establish to 
reimburse these airports?
    Answer. The Transportation Security Administration (TSA) takes a 
risk-based approach to investing in security programs at airports 
without optimized baggage screening systems to provide more effective 
security solutions. After thorough review, TSA does not have 
information to warrant reimbursement for all or a portion of the in-
line baggage screening systems absent prior formal TSA agreements for 
funding. Within the confines of the budget, any reimbursement of 
previous efforts outside a formal agreement comes at the cost of 
advancing current or future security measures.
    Question 17. Please provide a deployment plan, including timeline, 
location, and risk assessment analysis, for AIT and all other screening 
technologies for U.S. airports.
    Answer. TSA is available to brief the committee on this subject in 
a closed setting.
    Question 18. TSOs continue to complain about the poor training 
structure in place by TSA, and the committee has been informed that 
TSOs who fail certification tests are denied remedial training due to 
the lack of availability of Training Instructors. What steps has TSA 
taken to address the changes and structure that the TSO training 
workforce needs to ensure that they are a highly trained and 
knowledgeable workforce in the field, particularly in light of the 
deployment of new technology like the Advanced Imaging Technology 
machines?
    Answer. Transportation Security Officers (TSOs) are evaluated 
annually under the Performance Accountability and Standards System 
(PASS) that includes meeting standards on all applicable Technical 
Proficiency assessments. This annual certification is consistent with 
the Aviation and Transportation Security Act (ATSA) (Pub. L. 107-71) 
requirement that security screeners (now called security officers) must 
successfully complete an annual proficiency review in order to maintain 
employment as a TSO. The Technical Proficiency assessment processes 
include remediation and reassessment opportunities for an employee to 
improve his/her performance if he/she does not qualify on an initial 
assessment.
    Employees who do not qualify (receive zero points) on an initial 
Technical Proficiency assessment are required to receive remediation 
and must qualify on the applicable reassessment before returning to 
screening duties. These employees may not perform the screening 
function in which they initially failed to certify until successful 
completion of remediation and reassessment.
    The Transportation Security Administration (TSA) has established 
over 600 Security Training Instructors (STIs) to provide the needed 
training and remediation in the Nation's airports. In addition to the 
established STI cadre each airport has the tools it needs to establish 
collateral duty Assistant Training Instructors (ATIs) to support the 
STIs. TSA continues to evaluate the number of STIs needed, and when 
necessary and appropriate, adjustments to STI allocations can be made 
to ensure each airport has a sufficient number of trainers to meet 
their training delivery needs.
    TSA continues to refine and redesign the technical training 
portfolio for its security officer workforce--from new hire training to 
in-service training--to ensure that it is designed to effectively teach 
the basics, continually enhance core skills, and expand overall 
capabilities. TSA is committed to always enhancing its training 
portfolio, to include enhancements that will contribute to the 
effective use of new technologies. TSA works closely with equipment 
manufacturers as a technology is approved for TSA use, to design and 
develop a comprehensive training module. A training pilot is held for 
each new technology in support of the initial limited field deployments 
to ensure that TSOs can operate the equipment efficiently and 
effectively. Changes may be made to the curriculum based on the pilots 
before it is finalized. With technologies that involve image 
interpretation, such as the Advanced Imaging Technology (AIT), TSA 
continually develops new images representing clear and suspect/threat 
items to enhance TSO image interpretation skills. In addition, TSA is 
refining its strategic plan, curriculum roadmap for technical training 
design and development, and standardization and performance improvement 
efforts to identify skills, capabilities, and competencies that will 
contribute to TSO development and thus, build a corresponding 
comprehensive training portfolio.
    Question 19. What is the estimated completion date for the TWIC 
reader pilot program?
    Who will pay to replace a faulty TWIC card, the worker or TSA?
    Answer. The estimated date to complete data collection for the 
Transportation Worker Identification Credential (TWIC) reader pilot 
program is early 2011. After the data collection is complete the 
Secretary of the Department of Homeland Security will write and deliver 
a report on the results of the pilot to Congress as required by the 
SAFE Port Act of 2006.
    TSA's card replacement policy provides that transportation workers 
must pay for TWIC cards that stop functioning while in their 
possession.
    Question 20. What is the timeline for implementing a professional 
workforce development system for TSA employees?
    Answer. The Transportation Security Administration (TSA) has a 
number of professional workforce development programs currently in 
place and continually strives to enhance the development of its 
workforce.
    Question 21. How will TSA promote the use of small businesses in 
the procurement process?
    Answer. The Transportation Security Administration (TSA) has a very 
robust Small Business Program and continually strives to improve 
maximizing small business participation in every contract action either 
at the prime or sub-contract level. The Congressionally mandated small 
business goal for the agency is 23% of contractual dollars per the 
Small Business Reauthorization Act of 1997. In fiscal year 2003, TSA 
started tracking its small business goal numbers in the Federal 
Procurement Data System (FPDS). As a start-up agency, the small 
business percentages were only at 5.33% with small business prime 
contract obligations at $116 million. In fiscal year 2010, TSA met its 
goal by awarding 24.48% of its contracting dollars to small business at 
the prime level with obligations exceeding $463 million. In addition, 
TSA met its Small Disadvantaged Business goal of 10.3%. Lastly, for the 
first time, TSA exceeded its Service-Disabled Veteran-owned small 
business goal of 3%, which is a significant accomplishment for a young 
Federal agency.
    These significant small business accomplishments were achieved due 
to the strict policy and procedures put in place by TSA. Every 
contractual action over $150,000 must be coordinated with the Small 
Business Office before a solicitation is released to ensure small 
business participation is maximized to the fullest extent, either at 
the prime or sub-contract level. The Federal Acquisition Regulation 
(FAR), mandates that all contracts between $3,000 and $150,000 be 
automatically set-aside for small businesses. For large business 
contracts, TSA reviews every sub-contract plan to ensure compliance 
with TSA's sub-contracting goal of 40%.
    In addition, the Director of TSA's Small Business Office 
participates in many contractor outreach events across the country, 
educating small business owners on how to conduct business with the 
agency and briefing them on future contracting opportunities.
    Question 22. What are the demographics by gender, ethnicity, and 
age of the TSO workforce? What percent of managers and supervisors are 
women or minorities?
    Answer. The first two charts show the demographics for the 
Transportation Security Officer (TSO) workforce by gender, ethnicity, 
and age. The third chart shows the breakdown of managers and 
supervisors. All data is as of September 25, 2010.

                              TSO WORKFORCE
------------------------------------------------------------------------
                                                    TOTALs by   Percent
     Race and National Origin (RNO)        M    F      RNO       by RNO
------------------------------------------------------------------------
American Indian or Alaska Native........  308  253        561        1.2
Asian...................................  1,5  649      2,198        4.5
                                          49
Black or African American...............  5,3  5,5     10,922       22.4
                                          68   54
Hispanic/Latino.........................  4,6  2,9      7,673       15.8
                                          90   83
Native Hawaiian or Other Pacific          122  128        250        0.5
 Islander...............................
Other/More Than One Race................  90   62         152        0.3
White...................................  17,  9,8     26,896       55.3
                                          060  36
                                         -------------------------------
      TOTALs by Gender..................  29,  19,     48,652
                                          187  465
      Percent by Gender*................  60.  40.
                                          0%   0%
------------------------------------------------------------------------
* TOTAL TSA Workforce.


                          TSO Age Distribution
------------------------------------------------------------------------
                        Age                           Count     Percent
------------------------------------------------------------------------
Less than 20......................................         72       0.1%
20-24.............................................      4,474       9.2%
25-29.............................................      7,680      15.8%
30-34.............................................      5,902      12.2%
35-39.............................................      4,646       9.6%
40-44.............................................      4,878      10.0%
45-49.............................................      5,867      12.1%
50-54.............................................      5,746      11.8%
55-59.............................................      4,898      10.1%
60-64.............................................      3,322       6.8%
65+...............................................      1,167       2.4%
                                                   ---------------------
      TOTAL.......................................     48,652
------------------------------------------------------------------------


                     TSO Supervisor Age Distribution
------------------------------------------------------------------------
                        Age                           Count     Percent
------------------------------------------------------------------------
Less than 20......................................          0       0.0%
20-24.............................................         25       0.6%
25-29.............................................        248       5.5%
30-34.............................................        501      11.0%
35-39.............................................        545      12.0%
40-44.............................................        628      13.8%
45-49.............................................        857      18.9%
50-54.............................................        740      16.3%
55-59.............................................        526      11.6%
60-64.............................................        350       7.7%
65+...............................................        121       2.7%
                                                   ---------------------
      TOTAL.......................................      4,541
------------------------------------------------------------------------


                             TSO SUPERVISORS
------------------------------------------------------------------------
                                                    TOTALs by   Percent
     Race and National Origin (RNO)        M    F      RNO       by RNO
------------------------------------------------------------------------
American Indian or Alaska Native........  30   21          51       1.1%
Asian...................................  150  60         210       4.6%
Black or African American...............  490  301        791      17.4%
Hispanic/Latino.........................  364  192        556      12.2%
Native Hawaiian or Other Pacific          14   17          31       0.7%
 Islander...............................
Other/More than one Race................  ...   1           1       0.0%
White...................................  2,0  870      2,901      63.9%
                                          31
                                         -------------------------------
      TOTALs by Gender..................  3,0  1,4      4,541
                                          79   62
      Percent by Gender*................  67.  32.
                                          8%   2%
------------------------------------------------------------------------
* TOTAL TSO Supervisors.

    Question 23. What are the checkpoint screening protocols for 
passengers who wear religious headdresses? Are all TSOs trained in 
these protocols?
    Answer. All headwear, to include religious headwear, must be 
screened for prohibited items. Typically, headwear is screened via X-
ray or physical inspection. Working with various religious community 
stakeholders, the Transportation Security Administration (TSA) has also 
developed screening options for passengers who prefer not to remove 
their religious headwear for X-ray or physical inspection. Detailed 
procedures for screening headwear are Sensitive Security Information. 
However, TSA is available to provide a briefing to the committee to 
discuss specific headwear screening protocols. All Transportation 
Security Officers (TSOs) working at passenger checkpoints are trained 
on the screening options available for individuals wearing headwear, 
including religious headwear, as part of their initial and recurrent 
training requirements.
    Question 24. Several key rules for surface modes required by the 9/
11 Act are more than 2 years overdue. TSA has decided to write a 
consolidated rule for sections 1408, 1517, and 1534 to establish 
training programs for rail, transit, and inter-city bus employees. 
Similarly, the subcommittee understands that TSA is writing a 
consolidated rule for sections 1405, 1512, and 1531 to govern security 
assessments and plans for the same three modes. What is the status of 
these rules, and when will TSA issue a Notice of Proposed Rulemaking 
(NPRM) for each rule?
    Answer. The consolidated proposed rule establishing security 
training requirements for surface mode employees (sections 1408, 1517, 
and 1534 of the ``Implementing Recommendations of the 9/11 Commission 
Act of 2007'' (Pub. L. 110-53, 121 Stat. 266, 488-489 (2007) (9/11 
Act)), Transportation Security Administration (TSA), 1652-AA55-Security 
Training Programs for Surface Mode Employees (Notice of Proposed 
Rulemaking (NPRM), is in progress with a planned publication in the 
second quarter of fiscal year 2011.
    After further review, TSA determined that due to substantive 
differences in the requirements for modal security assessments and 
plans (sections 1405, 1512, and 1531 of the 9/11 Act), separate rules 
for each mode in this area would be most effective. TSA's anticipated 
time line for issuance includes: Mass Transit (expected publication of 
NPRM first quarter fiscal year 2012), Freight Rail (expected 
publication of NPRM fourth quarter fiscal year 2011), and Highway Motor 
Carrier (expected publication of NPRM first quarter fiscal year 2012).
    Question 25. TSA has proposed changes to the Transit Security Grant 
Program (TSGP) grant guidance for fiscal year 2011, and the committee 
is concerned that these changes will have a negative impact on the 
security of transit systems and the regional partnerships that have 
developed since the program's inception. Instead of agencies being able 
to collaborate with TSA, FEMA, and regional partners to make decisions 
based on the expert knowledge of their systems and the risks they face, 
it appears that TSA will dictate what assets are eligible for grant 
funding, while still holding grantee agencies ultimately responsible 
for securing them. Even more troubling is the suggestion that transit 
agencies compete for the 10% of funding to be made available for 
operational costs, which is a clear departure from the risk-based award 
process required by statute.
    What is the status of the proposed changes for fiscal year 2011? 
Does TSA intend to implement any or all of these changes?
    If TSA has made a determination to implement any such changes, how 
was that determination made? What grounds did TSA find that outweighed 
the concerns expressed above, as well as significant stakeholder 
feedback in opposition to the proposed changes?
    Answer. Final decisions regarding the fiscal year 2011 Transit 
Security Grant Program (TSGP) Grant Guidance and Application Kit are 
pending the passage of a fiscal year 2011 Department of Homeland 
Security (DHS) appropriation law.
    As a risk-based grant program, DHS continually reviews the TSGP in 
order to evaluate its effectiveness in responding to evolving threats 
and reducing critical vulnerabilities in the mass transit environment. 
The proposal for the fiscal 2011 TSGP would focus on proven operational 
deterrence activities, such as canine teams, training, and public 
awareness, and initiatives to remediate risk to large critical 
infrastructure through a dedicated funding stream. Specifically, the 
proposal on infrastructure would direct security funds to the highest 
risk areas on the most vulnerable critical infrastructure, increasing 
the safety and security of the Nation's traveling public.
    Question 26a. The subcommittee believes that it is critical for TSA 
and other relevant DHS components to partner with public and private 
sector stakeholders in order to facilitate development and testing of 
security technology specifically for surface modes. Moreover, the 
subcommittee views the Transportation Technology Center (TTC) in 
Pueblo, Colorado, as an important element in both TSA's endeavor to 
guide research and development of security technology for surface modes 
and strengthening TSA's credibility with surface stakeholders.
    Please describe all activities involving TSA that have been 
conducted pursuant to sections 1409, 1518, and 1535 of the 9/11 Act, as 
well as TSA's plans for carrying out these provisions in fiscal years 
2011 and fiscal years 2012.
    Answer. The Transportation Security Administration (TSA) and 
Department of Homeland Security's (DHS) Science and Technology 
Directorate (S&T) have developed and implemented on-going programs for 
Research & Development (R&D) and field evaluation/piloting of security 
technologies across modes, including establishment of on-going test 
beds. Many of these technologies are effective and suitable for several 
modes (e.g., standoff detection of Person-Borne Improvised Explosive 
Devices and Vehicle-Borne Improvised Explosive Devices, under vehicle 
screening, infrastructure protection, improvements in cyber security, 
programs to assess effects of chemical, biological, radiological, 
nuclear, and explosive threats, and programs to collaborate with 
industry to develop improved rail tank cars). There are also on-going 
programs which track Toxic Inhalation Hazards (TIH) moving by freight 
rail, clarify results of rail TIH tank car breaches, and have the means 
of assessing and mitigating results of any TIH-related incidents. Both 
TSA and DHS S&T have planned resources for security technology, R&D and 
field evaluations/pilots in fiscal year 2011, which will continue on-
going programs and explore new technological opportunities.
    Question 26b. Please describe all current TSA activities and 
resources involving TTC, as well as TSA's plans to further leverage 
TTC's experts, training facilities, and testing capabilities in fiscal 
year 2011 and fiscal year 2012.
    Answer. The Transportation Security Administration (TSA), in 
collaboration with the Federal Railroad Administration (FRA) and the 
American Association of Railroads established and maintains a test bed 
at the Transportation Technology Center (TTC) to test and evaluate rail 
conveyance vehicle-related security concerns. A multi-year modeling/
simulation and physical testing validation program was established 
several years ago and is nearing conclusion. This program assesses 
explosive destructive effects on mass transit rail cars. Follow-on 
projects are being planned, with intent that the TTC test bed will 
continue to be one of TSA's intermodal security test facilities.
    TSA began to utilize the TTC in 2006 in order to train its 
Transportation Security Inspector--Surface workforce on railroad-
specific safety and security issues. TSA entered into Memorandum of 
Agreement with the FRA to build out a portion of the facility to allow 
for more advanced training capabilities. In fiscal year 2010, TSA 
continued the build out and expansion of surface-related training at 
the TTC. The TSA facilitated classroom space modifications and 
dedicated personnel to the site (6 Full-Time Equivalents) to develop 
the surface transportation security-related course curriculum, manage 
facility expansion projects, and to deliver training material.
    Current training at the TTC for TSA employees includes coursework 
focused on orienting field staff to the railroad operating environment 
and providing related safety awareness. Future courses under 
development at the facility will provide applicable TSA staff with 
advanced railroad operating training, Visible Intermodal Protection 
Response training, and highway motor carrier/over-the-road bus 
operations. All of these courses include both classroom instruction and 
on-site practical application and exercises. TSA expects to begin 
providing these courses to certain field staff in fiscal year 2011. 
Additionally, throughout fiscal year 2011, TSA will be coordinating 
with the TTC in the development of an enhanced intermodal yard and 
passenger transit station, which in the future will be used for 
practical training.
    Question 26c. Has TSA considered the potential for housing training 
materials or courses at TTC in relation to forthcoming regulations for 
bus, rail, and transit employees?
    Answer. The Transportation Security Administration (TSA) has 
considered the Transportation Technology Center (TTC) as potential 
source for future stakeholder training that can be used to meet 
requirements of forthcoming training regulations for surface modes of 
transportation. However, there are many considerations and details that 
must first be evaluated before a final decision on this can be made.
    Question 27. The First Observer program is currently funded through 
a 3-year grant under TSA's Trucking Security Program (TSP), although it 
serves multiple transportation sectors, including inter-city buses, 
school buses, truck drivers, highway workers, law enforcement, and 
related critical infrastructure employees. However, since the initial 
grant for First Observer was awarded in 2008, TSP has been zeroed out 
of all successive DHS budget requests and appropriations legislation. 
The subcommittee understands that the performance period for this 
funding ends in July 2011 and considers it an imperative that this 
cooperative, model program be sustained past that date.
    Does TSA have plans to revive TSP in the fiscal year 2012 budget 
request?
    If not, does TSA have plans to extend operations of and resources 
for the First Observer program beyond July 2011 in some other manner?
    Answer. A review of the current 2008 funded Trucking Security 
Program grant confirms that the First Observer<SUP>TM</SUP> program, if 
necessary, can be continued through calendar year 2011 using current 
funding. For the out years, the Department of Homeland Security/
Transportation Security Administration will work with the 
administration to determine the course of action for the program and 
any appropriate funding measures.
    Question 28. How does TSA plan to address the resource gap between 
aviation and surface modes?
    Answer. The surface transportation sector is significantly 
different from the aviation sector, requiring strong stakeholder 
partnerships and leveraging of State and local resources in 
coordination with Federal requirements and support. There is 
significant risk to surface transportation with a high level of 
vulnerability due to the open nature of these modes. Various statutes 
and executive directives require that transportation risk activities be 
determined and implemented collaboratively in accordance with strategic 
plans developed with security partners. To obtain a more complete 
picture of system-wide risk and inform a National strategy, the 
Transportation Security Administration (TSA) has conducted a series of 
risk assessments on U.S. passenger rail systems and assets, including 
subway rail, commuter rail, and inter-city passenger rail. Building on 
these risk assessments, TSA also completed the Transportation Security 
Sector Risk Assessment (TSSRA) to serve as a comprehensive, cross-modal 
view and comparative analysis of terrorist risk involving 
transportation. These combined efforts play an essential role in the 
Department of Homeland Security's mission to prevent terrorist acts 
within the United States, to reduce vulnerability to terrorism, to 
minimize damage from potential attack and disasters, and to improve 
system resilience after an incident.
    In fiscal year 2010, the TSA worked with the administration and 
Congress to support additional efforts in surface transportation 
security. TSA received resources to stand up 15 new Visible Intermodal 
Prevention and Response (VIPR) teams, dedicated to the surface 
transportation security environment. TSA is now able to conduct 
thousands of VIPR operations annually in surface transportation modes. 
TSA also served as the executive agent for decisions on $300 million in 
Federal Emergency Management Agency (FEMA) public transportation and 
railroad security grants.
    The President's fiscal year 2011 budget will support TSA's 
continued efforts to protect the surface transportation system and 
ensure the freedom of movement for people and commerce, through:
  <bullet> Partnering with Federal, State, local, and private 
        stakeholders to optimize resources in a risk-based approach to 
        security;
  <bullet> Conducting inspections of freight railroads, mass transit, 
        and passenger rail facilities;
  <bullet> Deploying Visible Intermodal Prevention and Response teams;
  <bullet> Providing canines through the local law enforcement program;
  <bullet> Performing maritime credentialing activities to provide 
        assistance and oversight of local efforts; and
  <bullet> Providing technical support for the administration of 
        hundreds of millions of dollars in FEMA Metropolitan 
        Statistical Area (MSA) Preparedness Program grants (including 
        Port Security Grants and Rail and Transit Program Grants).
    Question 29. Now that Administrator Pistole has had several months 
to review the program, does TSA have any plans to make changes in 
STSIP's organization or administration?
    Does TSA plan to continue the current practice of requiring surface 
inspectors to go through aviation and air cargo training? Please 
explain fully and include a detailed explanation of how the aviation 
and air cargo training requirements are consistent with the program's 
authorizing statute, which expressly defines permissible STSIP 
activities as specifically surface-related.
    Does TSA plan to continue implementation of TSI Evolution, whether 
in general or to the extent that it affects STSIP? Please explain fully 
the grounds on which TSA has determined to proceed or halt 
implementation, and include a detailed explanation of how this course 
of action is consistent with the limits and requirements in section 
1304 of the 9/11 Act.
    As of September 30, 2010, does the Regional Security Inspector 
(RSI) have any authority over Federal Security Directors (FSDs), 
Assistant Federal Security Directors (AFSDs), or Area Directors in the 
field? Please indicate whether an RSI can--unilaterally or on behalf of 
the TSA administrator--intervene with or directly overrule an FSD, 
AFSD, or Area Director with respect to surface inspector activities and 
hiring in the field.
    Please provide a breakdown of all relevant diversity and 
demographic data for the total number of surface inspectors employed by 
TSA as of September 30, 2010.
    Answer. The administrator is currently reviewing the Surface 
Transportation Security Inspection Program (STSIP) to ensure it is 
effectively and efficiently organized to accomplish its surface 
transportation security mission. Any potential changes are pending the 
completion of this review.
    Question 30a. TSA has deployed Federal Air Marshal Service (FAMS) 
personnel--as well as other non-surface personnel--to lead Visible 
Intermodal Prevention and Response (VIPR) team deployments in public 
transit and passenger rail systems.
    Since the Federal Air Marshal Service's (FAMS) primary mission, 
training, and experience are in supporting aviation security, how did 
TSA determine that FAMS personnel should be deployed in surface VIPR 
teams?
    Answer. The Visible Intermodal Prevention and Response (VIPR) 
program was originally conceived to deliver two fundamental types of 
operations, law enforcement and screening. Section 1303 of the 
``Implementing Recommendations of the 9/11 Commission Act of 2007'' (9/
11 Act) (Pub. L. 110-53) authorized the Secretary, ``acting through the 
Administrator of the Transportation Security Administration'' to 
develop VIPR teams. and subsection 1303(a)(1) specifically authorizes 
Federal Air Marshals (FAMs) to be designated as assets for those teams. 
The Federal Air Marshal Service (FAMS) is TSA's designated law 
enforcement arm and therefore, FAMS resources were designated for VIPR 
involvement. As a foundation of their training, FAMs receive 
instruction and develop law enforcement skills necessary to perform law 
enforcement functions in all modes of transportation. FAMs 
participation in VIPR operations enables TSA to effectively collaborate 
with State and local law enforcement. It should also be noted that the 
Congress approved dedicated funding within the FAMS in fiscal year 2008 
specifically to establish a permanent VIPR program capability within 
the Service to support multi-modal deployments.
    Question 30b. Does TSA have plans for improving or changing this 
program with respect to its activities in surface transportation 
systems?
    Answer. The Visible Intermodal Prevention and Response (VIPR) 
program is continually reviewed and refined with the objective of 
effectively addressing risk in all transportation modes, including 
surface. The short-term focus is on implementing an annual planning 
process in which the Transportation Security Administration (TSA) field 
leaders work, in conjunction with their stakeholders, to determine key 
locations and deployment frequencies. In addition, strategic 
stakeholder and venue information from other TSA offices is being 
combined with the field input to support more effective identification 
and prioritization of deployment targets. Data from the Transportation 
Sector Security Risk Assessment (TSSRA) framework is also being 
introduced to the planning and deployment processes. An information 
management system is being implemented to integrate the risk, planning, 
and operational information to further improve the program. Full 
implementation of the integrated system is anticipated during fiscal 
year 2012.
    Question 30c. Does TSA plan to go proceed with creating fifteen new 
VIPR teams? Please provide the grounds on which this determination was 
made and address whether TSA has conducted or utilized any risk-based 
assessment that reflects substantive, qualitative, and surface-specific 
grounds indicating that fifteen new VIPR teams are the best option for 
allocating $25 million to surface transportation security.
    Answer. The Transportation Security Administration (TSA) has 
created the fifteen new Visible Intermodal Prevention and Response 
(VIPR) teams that were funded within the fiscal year 2010 Surface 
appropriation. The team locations were identified by considering the 
surface transportation risks across the country and the mitigation 
effects of the initial ten VIPR teams formed in fiscal year 2008, which 
have been focused in high-risk surface transportation areas. To achieve 
a National footprint and address remaining risk, the fifteen new teams 
were assigned locations that had not previously been assigned VIPR 
teams, all of which have identified significant surface transportation 
risk locations. This assignment strategy enables broader coverage of 
surface transportation risk and also provides the capability for all 
resources to adapt to changes in threat levels and respond in a 
flexible manner to all areas of the Nation.
    Question 30d. Has TSA developed qualitative performance measures to 
evaluate the effectiveness and cost vs. benefit of the VIPR program? 
Please describe these measures or provide an explanation of why they 
have not been developed or implemented.
    Answer. In the first quarter of fiscal year 2010, in order to gauge 
program effectiveness, the Visible Intermodal Prevention and Response 
(VIPR) program implemented output metrics that provide insight about 
data on deployment tempo, risk-based deployment focus, and stakeholder 
satisfaction. By focusing on all three areas, the program is able to 
infer program effectiveness. TSA continues to refine these metrics to 
evaluate and adapt to improve VIPR reporting. In addition, the program 
has established processes to implement outcome-focused metrics.
    In addition, outcome-based metrics currently under development will 
rely on stakeholder and location information as well as risk 
measurement information captured from the Transportation Sector 
Security Risk Assessment (TSSRA) methodology. Transportation Security 
Administration (TSA) anticipates that the initial implementation of a 
new information management system during fiscal year 2011 will 
facilitate the collection of data necessary to establish baselines for 
the outcome-focused metrics. The information system collecting this 
data is scheduled for implementation by February 1, 2011, and 
sufficient initial data should be available by July 1, 2011, to start 
calculating metric results. Three fiscal quarters of initial data will 
be used to establish the baseline metrics by January 1, 2012. The 
metrics will be refined during fiscal year 2012, integrating 
information anticipated to be available from linkage to the TSSRA 
methodology, by July 1, 2012. By linking program inputs to program 
outcomes, full implementation of the outcome-based metrics will provide 
an additional tool to evaluated the effectiveness of the VIPR program.
   Questions From Honorable Dina Titus of Nevada for John S. Pistole
    Question 1a. I want to get you on the record on a pilot program 
that was recently completed Boston's Logan Airport and at Las Vegas 
McCarran, which is located in my Congressional District. As you know, 
this pilot involves an enhanced pat-down technique, which I see as 
being more invasive than the current techniques. I am concerned that 
word of this pat-down technique will spread amongst travelers. Las 
Vegas cannot afford to lose any visitors, and I would hate for someone 
to cancel their trip due to privacy concerns regarding this new pat-
down technique. I want to ask you a few questions to garner more 
details about the pilot and to ensure that TSA did not unnecessarily 
inconvenience travelers.
    How were the two sites (Las Vegas and Boston) selected for the 
pilot?
    Answer. BOS and LAS were chosen for this operational evaluation 
primarily because of the exceptional working relationship between local 
Transportation Security Administration (TSA) personnel and their 
respective Airport Authority and the willingness of airport management 
to contribute to the evaluation of security screening improvements. 
Additionally, since some aspects of the new pat-down procedures are 
prompted by anomalies discovered during Advanced Imaging Technology 
(AIT) screening, it was important to choose airports that: (1) Had AITs 
that screened a population that was likely to generate a significant 
sample size of situations requiring the new pat-downs; and (2) could 
provide Transportation Security Officers (TSOs) that were highly 
experienced in screening protocols for both models of the AIT. BOS and 
LAS satisfied those requirements.
    Question 1b. Do you anticipate using these sites for future 
programs of this nature?
    Answer. For each type of pilot we utilize a variety of factors for 
selection of airports, therefore it is difficult to speculate on future 
venues.
    Question 1c. I am concerned that this pilot will not necessarily 
yield tangible results. What metrics are you using to monitor the 
efficacy of the pilot?
    Answer. During the evaluation, a team of data collectors monitored 
pat-down occurrence rates, reviewed cycle times (the amount of time 
required to conduct each element of the screening protocols), screening 
equipment availability and its relationship to pat-down requirements, 
and passenger reaction to the pat-downs as recounted by the officer 
performing the search.
    Question 1d. What opportunities were afforded to passengers to 
voice their opinions of the pilot? How are you incorporating this 
feedback?
    Answer. Since the evaluation was targeted to measure operational 
impacts of the new procedure, passenger feedback was not actively 
solicited during this evaluation. However, as indicated above, where a 
passenger did react to the application of a new pat-down during the 
evaluation, TSA collected the information and evaluated it. All 
feedback provided by passengers--whether through Transportation 
Security Officers, the data collectors, TSA's Got Feedback or Talk to 
TSA Program, or to the TSA Contact Center--was reviewed and evaluated.
    Question 2. On separate issue, in previous hearings you indicated 
that the Department believed that canines play an important role in the 
cargo inspection program. You further indicated that the Department was 
developing standards for expanding the use of explosive detection 
canines to include private sector canines and that a pilot test will be 
conducted. Has the pilot test been scheduled? What is the timetable for 
the pilot?
    Answer. The Transportation Security Administration (TSA) currently 
has more than 600 canine teams in the Aviation sector available to 
screen cargo bound for passenger aircraft.
    The pilot program to evaluate private sector canine teams in the 
cargo environment is anticipated to start in the second half of January 
2011 and run approximately 120 days.

                                 <all>

</pre></body></html>
